<html>
<title> - INNOVATIVE APPROACHES TO PREVENTING CRIME AND REHABILITATING YOUTH AND ADULT OFFENDERS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




INNOVATIVE APPROACHES TO PREVENTING CRIME AND REHABILITATING YOUTH AND 
                            ADULT OFFENDERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2002

                               __________

                           Serial No. 107-165

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

85-124              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
        Christopher A. Donesa, Staff Director and Chief Counsel
              Amy Adair Horton, Professional Staff Member
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2002...................................     1
Statement of:
    Curie, Charles, Administrator, the Substance Abuse and Mental 
      Health Services Administration.............................     9
    Deary, Kevin, president and executive director, Boys and 
      Girls Club of Greater Goshen; Alisa Stovall, education 
      coordinator, Deer Run Academy; Matthew P. Schomburg, Wayne 
      Township trustee; Mark Terrell, CEO, Lifeline Youth and 
      Family Services, Inc.; and Glynn Hines, Fort Wayne city 
      councilman.................................................    59
    Surbeck, John F., judge, re-entry court initiative, Allen 
      Superior Court, Criminal Division; Frances C. Gull, judge, 
      drug court, Allen Superior Court, Criminal Division; and 
      David C. Bonfiglio, judge, Elkhart Superior Court VI.......    27
Letters, statements, etc., submitted for the record by:
    Bonfiglio, David C., judge, Elkhart Superior Court VI, 
      prepared statement of......................................    39
    Curie, Charles, Administrator, the Substance Abuse and Mental 
      Health Services Administration, prepared statement of......    13
    Deary, Kevin, president and executive director, Boys and 
      Girls Club of Greater Goshen, prepared statement of........    62
    Gull, Frances C., judge, drug court, Allen Superior Court, 
      Criminal Division, prepared statement of...................    32
    Hines, Glynn, Fort Wayne city councilman, prepared statement 
      of.........................................................    91
    Schomburg, Matthew P., Wayne Township trustee, information 
      concerning Twenty-first Century Scholars...................    76
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Stovall, Alisa, education coordinator, Deer Run Academy, 
      prepared statement of......................................    68
    Terrell, Mark, CEO, Lifeline Youth and Family Services, Inc., 
      prepared statement of......................................    82

 
INNOVATIVE APPROACHES TO PREVENTING CRIME AND REHABILITATING YOUTH AND 
                            ADULT OFFENDERS

                              ----------                              


                         FRIDAY, MARCH 22, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Fort Wayne, IN.
    The subcommittee met, pursuant to notice, at 1 p.m., at Ivy 
Tech Auditorium, 3800 North Anthony Boulevard, Fort Wayne, IN, 
Hon. Mark E. Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings and Davis.
    Staff present: Conn Carroll, clerk; Christopher A. Donesa, 
staff director and chief counsel; Amy Adair Horton, deputy 
staff director; and Julian A. Haywood, minority counsel.
    Mr. Souder. If everybody could take their seats. 
Subcommittee will now come to order. I'm honored to chair this 
hearing today for multiple reasons. Foremost is the fact we've 
been able to gather so many quality professionals from local 
communities, courts and government, to Federal officials for 
this hearing.
    It's a privilege to welcome Administrator Charles Curie of 
the Substance Abuse and Mental Health Services Administration 
[SAMHSA], who happens to actually be a native of this area, 
from DeKalb County to be exact. The Department of Health and 
Human Services, through SAMHSA, provides the majority of 
Federal funding for drug abuse treatment, prevention and 
education programs in the United States.
    With an estimated 26 million Americans presently addicted 
to drugs and/or alcohol, costs to our community are 
skyrocketing. The cost of both drug and alcohol addiction to 
society, including costs for health care, substance abuse 
prevention and treatment, preventing and fighting substance-
related crime and lost resources resulting from reduced worker 
productivity or death, was estimated at an astounding $246 
billion for 1998.
    Administrator Curie will testify about the administration's 
initiative to prevent drug abuse and treat drug users. He will 
also testify about Federal funds flowing to Indiana for drug 
abuse treatment, prevention and education programs, as well as 
drug abuse trends in northeast Indiana.
    I am also honored and pleased to welcome two of my 
congressional colleagues to northeast Indiana today. 
Congressman Elijah Cummings of Baltimore, who is a ranking 
member of this subcommittee, and Congressman Danny Davis of 
Chicago, who has been a leader in the House of Representatives 
on the issue of re-entry of ex-offenders to communities.
    Finally, I want to thank all of our distinguished 
witnesses, many of whom have changed their busy schedules in 
order to accommodate this hearing. The subcommittee will 
greatly benefit from your testimony this afternoon.
    For quite some time, I've been hoping to have the 
opportunity to showcase the exemplary programs that have grown 
from the grassroots in northeast Indiana. This region has 
proven to be a prolific environment for innovative crime 
control programs, initiatives that provide pre- and post-
adjudication services for high-risk youth and adult and 
juvenile offenders. Such programs span a wide variety of 
services, including adult re-entry and drug courts; juvenile 
mentoring, educational attainment and character programs; 
alternative schools; anti-drug programs; and partnerships 
between law--local law enforcement and neighborhood 
communities. Those of us from this area have reason to be very 
proud of our community's leadership in providing narrowly 
targeted services to juvenile and at-risk populations.
    Of the local programs highlighted at this hearing, some 
funding flows through various Federal grant programs, including 
the Department of Education's GEAR UP program, the Corporation 
for National Service's Americorps program, the Bureau of 
Justice Assistance, and the Department of Justice's Community-
Oriented Policing Services, COPS, program. I am interested in 
learning how the Federal Government can provide monetary and 
other assistance to local communities who are on the front 
lines of crime control.
    Another reason for my distinct pleasure in hosting this 
hearing is that some of the local initiatives highlighted today 
are linked to legislation I have closely worked on in 
Washington. As a member of the House Education Committee, I 
have worked on juvenile justice legislation, the Safe and Drug 
Free Schools and Communities Act, and GEAR UP, Gaining Early 
Awareness and Readiness for Undergraduate Programs. Since 1996, 
the Education Committee has annually considered juvenile 
justice bills. I worked heavily last year on the Elementary and 
Secondary Education Act, which contained the Safe and Drug Free 
Schools title. This is the Federal Government's major 
initiative to prevent drug abuse and violence in and around 
schools. And, in 1998, I worked with Congressman Chaka Fattah, 
who is not here, to create--I was a major Republican sponsor to 
create the GEAR UP program. GEAR UP seeks to increase 
disadvantaged students' secondary school completion and post-
secondary enrollment by providing school--support services and 
by assuring students of the availability of financial aid to 
meet college costs.
    As Congress continues to consider crime control 
legislation, it is important that we learn about grassroots 
programs that are effective in addressing specific adult and 
juvenile justice issues. Some of these initiatives may be 
fortified with the Federal grant money; others may not. The 
central questions are what we can--what can we learn from these 
programs and how can the Federal officials encourage and 
champion programs like we see here in this area.
    Just several weeks ago, I was with Congressman Cummings in 
Baltimore. We focused particularly on drug treatment, in which 
he's been a leader in, but also the drug courts, which has been 
very important here in northeast Indiana, and--and where I've 
been on the forum multiple times advocating the drug courts and 
we're going to hear more about that today.
    And Congressman Davis is a champion on re-entry programs, 
which Judge Surbeck will be talking about our challenges here 
in northeast Indiana. I supported his legislation. One of the 
most difficult problems we have in--in cities like the size of 
Fort Wayne and especially in our smaller towns is where do you 
find transitional housing, where do you find people who are 
willing to employ people, retrain them, because, if we don't do 
those kinds of things, it is difficult to see how we cannot 
just accelerate the pace of crime and problems in our 
communities. And we have two of the most innovative Members of 
Congress here today and it's a great honor to welcome them here 
to Fort Wayne.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.001
    
    [GRAPHIC] [TIFF OMITTED] T5124.002
    
    [GRAPHIC] [TIFF OMITTED] T5124.003
    
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I want 
to thank you and--sincerely for inviting me to your 
congressional district and for holding this very important 
hearing in Fort Wayne today. I'm certainly very pleased to have 
Congressman Danny Davis, a member of our subcommittee, with us.
    Just 2 weeks ago, as you stated, Mr. Chairman, the 
subcommittee held a similar hearing in my home district of 
Baltimore City, and you were able to see and hear what the 
Federal Government, the State and local agencies and the 
private sector organizations are doing to combat the terrible 
problem of drug abuse and addiction in Baltimore. In Baltimore, 
as you are well aware, with a population of some 665,000, it is 
estimated that we have 65,000 addicts, plus. I thought it was 
important for you and for the Congress to know about the 
remarkable progress that Baltimore has made in reducing drug 
use and related crime and health problems by expanding access 
to effective drug treatment.
    Today's hearing gives me a similar opportunity to see what 
the public and private sector are doing in northeast Indiana to 
prevent crime and to rehabilitate youth and adult offenders in 
your community. Here, as in Baltimore, the initiative and 
creativity that spawns effective solutions often begins at the 
grassroots level among the very people who are directly 
affected in their own communities. Clearly, I affirm the 
Federal Government has played, and must continue to play an 
active role in supporting many such efforts in Baltimore and 
northeastern Indiana and around the country. It is important 
for us, as Federal legislators, to learn about and to talk 
about local success stories so that we can replicate them 
across our great Nation.
    The work of the Substance Abuse and Mental Health Services 
Administration is a primary source of Federal support for drug 
treatment and research programs around the country. So I'm very 
glad that SAMHSA's administrator, Charles Curie, appears here 
with us today. I'm happy, too, Mr. Chairman, that Congressman 
Danny Davis, who has spent phenomenal amounts of time 
addressing the issue of re-entry is here with us, too. For he 
brings a lot of the insight. So often what happens is that 
people say, Put--when people run into drug problems, they say, 
Put him in jail and throw away the key. Well, the fact is is 
that people are going to come back into our communities and, as 
we've found in Baltimore, so often they return to the same 
corners, to the same house and to the same people and, next 
thing you know, we have a revolving door. And, so, that--for 
that reason, it is so important that we address re-entry.
    The problem with crime in America is very complex, but its 
connection to drug abuse and addiction is clear and easily 
understood. Recently, the director of the Office of National 
Drug Control Policy, John Walters, paid a visit to Baltimore 
City, and we were able to sit down and talk with a number of 
residents in a highly successful drug treatment facility there 
called the Turk House. During that exchange, we conducted our 
own miniature survey of among 12 recovering addicts and learned 
that, on the average--and listen to this--that, on the average, 
each of them spent more than $100 a day to support their drug 
addiction and all of them--all of the 12 were unemployed.
    During the subcommittee's recent field hearing in Baltimore 
City, Police Commissioner Edward Norris testified that 8 
percent of homicides in Baltimore and an even greater 
percentage of property crimes, which are far more prevalent, 
are drug-related. Certain crimes may be beyond our government 
to prevent, Mr. Chairman, but we can do something about drug-
related crime if only we could get people to stop using drugs. 
Baltimore's experience proves that. We simply cannot solve 
either the drug problem or the crime problem simply through 
incarceration, and that is why I'm such a strong supporter of 
drug courts, which use the coercive power of criminal--of the 
criminal justice system to get substance abusers the treatment 
that they need. Still, drug and alcohol abuse are not the only 
recursus of criminality. Child abuse and neglect, substandard 
living conditions and many other factors can help make a 
criminal out of someone who might otherwise flourish and 
contribute as a productive citizen. And, so, our criminal 
justice system must become flexible enough to identify and 
treat underlying problems when offenders enter the system for 
the first time. Often, as we know, that is very--that is very 
early in an offender's life, so juvenile justice programs, 
including juvenile family courts, are critical. For juveniles 
and adults alike, if we simply punish without actually 
correcting what's wrong with the individual, the cycle of 
abuse, addiction and criminal behavior will quickly take hold.
    As Representative Davis clearly understands, we must also 
deal with those who are already incarcerated and who are or 
will be returning from prison to society. Sending offenders 
away for longer periods of time may ease the pain of victims 
and others in the community, but it only defers the pain these 
offenders will visit upon future victims if they are not 
prepared to be law-abiding, self-sufficient citizens when their 
sentences are up. We simply must do more to ensure that, when 
an offender is released, he or she is equipped to function as a 
healthy, self-sustaining and productive citizen, parent, spouse 
and employee.
    Based on the written testimony I've seen, some, if not all, 
of these ideas have already been put to work on the State and 
local level in the Fort Worth area, and I--and I look forward 
to hearing how various justice programs are working and what 
lessons our witnesses can offer to communities across the 
country, including how the Federal Government has been helpful 
to date and how it can be even a better partner in the future.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you very much.
    Now, I'd like to recognize my friend, Mr. Davis, who's my 
friend not just because he represents the Chicago White Sox, 
for those of you who know I've been a White Sox fan for many 
years, but he's been a great leader and Congressman, 
Congressman Danny Davis.
    Mr. Cummings. I'm waiting until next year. And I meant to 
say--And I meant to say Fort Wayne.
    Mr. Davis. Thank you very much, Mr. Chairman. And let me 
first of all commend you and ranking member Elijah Cummings for 
the outstanding leadership that you've both shown in this area 
of drug use abuse and trying to find ways to correct problems 
that exist. It is my feeling that's one of the most pernicious 
and most threatening of all the problems facing our society, is 
that of drug use and abuse, which becomes an integral part of 
what happens with and within our criminal justice system. As 
you have already noted, many of the individuals who are caught 
up in criminal justice activity find it being spurred and 
generated by the use of mind-altering drugs. Once they lose 
control of the direction of their lives, then it becomes a very 
empty situation for them; therefore, I commend you for the 
efforts to take in-depth looks at these issues.
    The Justice Department has predicted that more than 630 
thousand people will be released from our prisons and jails 
this year with the same thing happening next year and the next 
year and, unfortunately, many of these individuals--most of 
them are returning in worse shape than they were in when they 
were first incarcerated. Half of them or almost half will find 
themselves caught up again within a period of 3 years. And, so, 
therefore, we must, as Representative Cummings has indicated, 
find a way to provide more resources, more opportunity and to 
help not only those individuals, because, as we help them, we 
are really helping ourselves. That's why we take the position 
that, when we help an ex-offender become a productive member of 
society, we help a whole community realize its own potential. 
And, so, I'm pleased to be here today in Fort Wayne, look 
forward to the discussions that will take place and certainly 
want to add my welcome to Administrator Curie and look forward 
to his testimony.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you very much.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First, that I have consent that all Members 
have 5 legislative days to submit written statements and 
questions to the hearing record and any answers to written 
questions provided by the witnesses also be included in the 
record. Without objection, so ordered.
    Second, I ask to have consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and all Members will be 
permitted to provide extended remarks. Without objection, it's 
so ordered.
    We are an oversight committee and it is our standard 
practice to ask all our witnesses to testify under oath. So, if 
you could stand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness answered 
in the affirmative.
    It's a great honor to have you here to initiate our hearing 
today, and I'll now ask you, as administrator of this important 
and the most important drug treatment agency, to outline some 
of your accomplishments and goals.

STATEMENT OF CHARLES CURIE, ADMINISTRATOR, THE SUBSTANCE ABUSE 
           AND MENTAL HEALTH SERVICES ADMINISTRATION

    Mr. Curie. Thank you, Mr. Chairman. Appreciate the 
opportunity to be here today for broad reasons. One of you 
mentioned this does represent my hometown district, and I know 
my parents are pleased I'm able to come home for a visit on 
this particular trip, but, also, professionally, I appreciate 
the work you, Mr. Chairman, have done on this and as well as 
Congressman Cummings and Congressman Davis, to further the 
education of the public around substance abuse, which hopefully 
I'll be able to elaborate on here. I do request that my written 
testimony, which I'm submitting, be made part of the record.
    And I do also appreciate the fact you clarified in your 
opening statement and one amendment I'd like to make to that 
written testimony is it had me down as a native of Noble 
County. I'm a native of DeKalb County. My staff understands 
that now as we move ahead. And I think the--what occurred is my 
good friend, Judge Michael Kramer, came from Noble County to 
visit me in my office and we talked about northeastern Indiana. 
So I think my staff got a little confused with that, but I am a 
native of DeKalb County. Also have roots here through having 
been a graduate of Huntington College. And then Congressman 
Davis and I were just comparing notes. Being an alumnus of the 
University of Chicago and we were able to talk about common 
social work around there.
    Also, Congressman Cummings, if I might, I'd also like to 
note your continued efforts to reduce the availability of drugs 
and increase access to care. And I want to apologize for not 
having been able to be at the Baltimore hearing. I was--my 
attention that day was directed toward Chairman Regula and the 
Appropriation Subcommittee, my budget. So I had that priority 
facing me that day.
    I'd like to also indicate that, with my visit here in Fort 
Wayne, I arrived yesterday and had an opportunity to see first-
hand the inner-workings of the re-entry court under Judge 
Surbeck, and I just want to say that I not only had a chance to 
see he and his staff in action and the work of Executive 
Director Sheila Hudson preparing for that court, but I was able 
to sit in on a night court session last night. And I thought it 
represented an excellent model of accountability, but also 
recognition of what the members of this committee have already 
articulated in terms of the underlying issue of substance abuse 
and addictive disease and how that contributes to the cycle of 
crime, but how we can also address this issue through 
treatment, at the same time holding people accountable and 
really work to restoring individuals to come to a life of 
dignity and full participation in the community. And I think 
Fort Wayne doing this basically proves grassroots movement in 
terms of using the dollars that were already here to accomplish 
that is a great testimony and I do believe that it will serve 
as a model as we look to fund other programs in corroborating 
with the Department of Justice to see that this type of model 
can be available throughout the country.
    It is SAMHSA's mission to fully develop the Federal 
Government's ability to target substance abuse and mental 
health services to the people most in need and to translate 
research in these areas more effectively and more rapidly in 
the general health care system. The Agency's work has shown 
that prevention, early intervention and treatment for mental 
and substance abuse disorders pay off in reduced HIV/AIDS, 
crime, violence, suicide, homelessness, injuries and health 
care costs, as well as increase productivity, employment and 
community participation. I might add that the focus of this 
hearing also, I think, points out that good public health also 
can translate to good public safety. I--the comment that was 
made, I believe by Congressman Cummings, the statistic of 
630,000 individuals leaving the correctional facilities 
throughout this country point out that if individuals still 
have an underlying addiction disorder that's not been 
addressed, they're going to be--continue to be a prisoner of 
that addiction disease and the revolving door will continue to 
spin.
    The President's proposed budget for 2003 includes an 
additional $127 million for substance abuse. It's a 
continuation of the President's promise to reduce the treatment 
gap. It includes an additional $60 million for the substance 
abuse prevention treatment block grant that will bring several 
contributions directly to the State to $1.785 billion. If the 
President's budget is approved, Indiana, for example, will 
receive $33,632,000. Janet Corson, who is the director of the 
Indiana agency, is responsible for the block grants funds and 
we pledge our continued work with her to see that these funds 
are used effectively.
    The President also has proposed increasing $67 million for 
competitive grants. This year, Indiana is receiving an 
additional $4.7 million in competitive grants in addition to 
the block grants.
    I encourage these programs also in this district to apply 
for Targeted Capacity Expansion grants. The next application is 
due May 10th, and these funds provide support to local 
communities to address substance abuse treatment issues in 
their area, whether it's Oxycontin, methamphetamine abuse or 
services for adolescents, in particular, adolescents in the 
criminal justice system.
    We support and expect to expand also our State Incentive 
Grant Program, which Indiana is a recipient of about $2\1/2\ 
million. Eighty-five percent of these funds are required to go 
to local communities for prevention activities. SAMHSA will 
also help local communities by identifying programs and models 
that work so they can be replicated in different communities 
with different populations. We do this through treatment and 
prevention improvement protocols for substance abuse issues and 
common and technical assistance.
    I also wanted to point out two other things real quickly; 
the need to focus in our systems on care of co-occurring mental 
illness in substance abuse disorders. We are finding in our 
service delivery system as high as 60 percent of individuals 
being served by the drug and alcohol system, as well as mental 
health have co-occurring disorders which are not being fully 
treated, and I view this as an area that we need to address so 
that we are assuring that we're maximizing the public dollar in 
the first place. Because, if we treat the substance abuse issue 
without treating the underlying mental illness, people are 
going to continue to self-medicate and come right back in that 
system. The same is true with treatment of mental illness. 
Without dealing with the recovery around the addiction, again 
we are not fully treating those individuals.
    And the other point I would like to make is our system 
needs to be thinking about giving people life in the community. 
Whether we talk to prisoners coming out of the criminal justice 
system who have a substance abuse disorder or whether we're 
talking to individuals coming out of the State hospitals with 
mental illnesses, I think that there's been scientific surveys 
done on this and, in my own experience in just sitting down and 
speaking with these individuals, you ask them what they need to 
succeed. They don't talk about, I need a psychologist to follow 
me around or a licensed drug counselor to follow me around or a 
case manager. They talk beyond treatment. To make it in the 
community, they say, I need a job, a decent place to live, and 
I translated a date on the weekends, but significant emotional 
relationships and family and friends to be part of the 
community and to be accepted. We have failed in our system if 
we don't do that.
    I'd like to end with a quote from Douglas McArthur, who is 
not known as a mental health advocate or a drug and alcohol 
substance abuse advocate, but he spoke the truth when he said, 
``In the central place of every heart is a recording chamber. 
So long as we receive the message of beauty, hope, cheer and 
courage, so long are you young. When the wires are all down and 
your heart is covered with the small pessimisms and the act of 
cynicism, then and only then are you grown old.''
    And these words of McArthur are true in the person trapped 
by addictions, the person devastated by mood swings and the 
person distracted by the voices are people who become more and 
more isolated. They may get in trouble with the criminal 
justice system, become more isolated. The wires are truly down. 
This then tells us that we need to be about not only bringing 
the wires up, seeing that treatment takes hold, recognizing 
that coerced treatment does work in prisons, but once treatment 
does take hold, we must do everything in our capacity to assure 
messages are sent to that central place of the heart, messages 
of beauty, hope, cheer and courage and help people gain a life, 
including a job, a descent place to live and significant 
relationships.
    So that's what we need to be about in the system. I look 
forward to working with you and accomplishing that.
    Mr. Souder. Thank you very much for your testimony and once 
again for coming.
    [The prepared statement of Mr. Curie follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.004
    
    [GRAPHIC] [TIFF OMITTED] T5124.005
    
    [GRAPHIC] [TIFF OMITTED] T5124.006
    
    [GRAPHIC] [TIFF OMITTED] T5124.007
    
    [GRAPHIC] [TIFF OMITTED] T5124.008
    
    [GRAPHIC] [TIFF OMITTED] T5124.009
    
    [GRAPHIC] [TIFF OMITTED] T5124.010
    
    Mr. Souder. What do you see as the major trend that you'll 
be addressing in this next year? Co-occurrence is an 
interesting angle, one that hasn't been talked about enough, 
but, clearly, people who abuse drugs and alcohol have usually 
some other kind of problem that led into them. I'd be 
interested in that, or if there are particular programs. 
Clearly, we're seeing a rise in methamphetamines in many parts 
of the country, of Oxycontin, of Ecstasy.
    Do you tailor any of your treatment ranks around trends of 
a given area? Are you looking for innovative programs that 
address certain types, or is it more comprehensive presence 
than that?
    Mr. Curie. I'll answer the first part of the question and 
then the second.
    In terms of our priorities we'll be addressing this year, 
you are exactly right, co-occurring is a No. 1 priority that we 
will be addressing. I think it is SAMSHA's responsibility to 
take a lead on that important field, identify, in collaboration 
with providers, academic institutes, the research institutes 
and in the national institutes for health what models really do 
work in terms of integrative treatment models to treat people 
that have co-occurring disorders.
    And another reason that we're focused on that area as a 
priority is 80 percent--while 80 percent of the individuals in 
the criminal justice system typically across the country--when 
I was in Pennsylvania as commissioner of mental health there, 
we did a review of the State prisons there. Eighty percent of 
the individuals in the State prison system had a drug and 
alcohol issue, over 50 percent were under the influence at the 
time of arrest, 10 to 12 percent had a serious mental illness 
diagnosis and 90 percent of those individuals had a co-
occurring substance abuse problem. So that tells us right there 
where we need to put our priorities in treatment. And we do 
track trends across the country around Oxycontin, around 
methamphetamines, Ecstasy, the club drugs and what we're 
finding is that new drugs seem to emerge in cycles and many 
times emerge in different geographic regions of the country and 
then spread across the country, and we do try to follow that. 
We find that there's typically the same type of intervention 
and, both in terms of prevention and treatment, are--can 
address.
    Even though there are different drugs, the same underlying 
dynamics are at play. So, what we do is try to identify those 
drugs and determine are there some tailored approaches we may 
need to take. We think that's why we need to have an ongoing 
approach to assure access to care and be addressing that club 
drug issue, in particular, as well as issues of--that arise in 
various localities.
    Mr. Souder. And a co-occurrence question. Do you see 
different patterns of drug and alcohol abuse depending upon the 
mental health problem? Do you see it as something that is more 
common with the mental health problem that you've identified, 
or is it--does it get greater as you get older? Are some more 
identified with youth and adult? Could you give us a couple of 
examples of that, because, working on this for some time, there 
are obviously many variations of this----
    Mr. Curie. Sure.
    Mr. Souder [continuing]. But what would be a couple of 
examples?
    Mr. Curie. No. That--that's an excellent question.
    What we have found is a typical pattern has been that 
there's an onset of serious emotional disturbance or a mental 
illness in an individual in their teens years--adolescent teen 
years. We call it kind of the 5-year window of opportunity to 
address it if it's identified early on. If it's not addressed, 
those individuals are at very high risk of beginning to abuse 
substances, not only because of perhaps it's something that's 
experimented with as teens, but also it begins to be a way of 
self-medicating the underlying bipolar disorder, for example, 
and they have both manic phases, as well as depressive phases. 
The drugs temporarily take an edge off of those symptoms and, 
so, they begin to get into a cycle.
    We find that if we address the mental illness early on 
appropriately with appropriate treatment and appropriate 
prescribed medication, that what begins to happen is you can 
avert the substance abuse from occurring. So that's one typical 
cycle that can occur. The other thing that can occur is a long-
term use of drugs can begin to have an impact organically on 
the brain and begin to also address--you begin to see some 
fatalities around a mental illness. But, typically, what we're 
finding is more along the lines of a self-medication that 
occurs.
    Mr. Souder. Do you see much difference--and, if you can 
follow this up, if you can give me a preliminary of 
differences--in ethnic and income backgrounds and the drug and 
alcohol abuse related to mental health? In other words, would 
economic questions or other pressures be greater in an urban 
center and some of the other mental health questions be more 
suburban, or is it kind of uniform across the board, different 
kinds of patterns, such as Hispanics, say, from African 
Americans from Europeans from Asians?
    Mr. Curie. I'm not aware that we have necessarily been able 
to isolate it in terms of being able to say that it's--there's 
great variation depending on ethnicity. I think it's more of a 
general--a trend. In fact, I would say, if you turn the clock 
back 5 years ago and before--and I remember early in my career, 
we used to talk about whole morbidity, people with co-occurring 
mental illness and substance abuse as if it was a small 
speciality population. Today, again, we're seeing about 60 
percent of the individuals in our system have some sort of co-
occurring issue.
    So it's not a specialty population; it's more the norm. And 
the concern that we have is that we're spending block grant 
dollars, we're spending dollars on treatment and, if we're not 
treating the whole disorder, then people with a concern go, if 
we're treating a new disorder, are we going to need more money? 
Are we going to be wasting our--wasting money? My feeling is 
we're currently wasting dollars by not treating the co-
occurring issue up front, not identifying it early on, not 
identifying it through assessment.
    So it's a pop---we know more today than we ever have 
before, and I think part of what you just outlined in the 
question is we need to pursue in terms of what are the 
differences of urban versus rural suburban, as well as 
ethnicity.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you. Thank you very much.
    Dr. Curie, how much of SAMHSA's grant moneys was treatment 
for persons through the criminal justice system?
    Mr. Curie. I may not have that readily available. I do know 
that we have several grants and several partnerships that we 
have with the Department of Justice. At this point, I can give 
you that--I can give you some representative figure. I know, 
currently, we have $8 million that we have contributed to the 
re-entry program, which the Fort Wayne model's being a basis 
for that, and we're looking to make awards across all 50 States 
in collaboration with the Department of Justice, Department of 
Labor, HUD, as well as the Department of Education, to address 
all the needs of individuals as they're coming out of the 
criminal justice system into the community in a collaborative 
way.
    So those are some of the newest dollars we're putting in 
there. We have made criminal justice issues a priority--a 
stated priority of SAMSHA's budget for this year. And for 2003 
and for 2004, it's one of the proposals actually right now of 
beginning to redistribute some of our current funding to line 
up with that, because I'm a firm believer that we have missed 
out if we have not collaborated with justice to maximize--to 
maximize. Justice is responsible for treatment within the 
walls, but we need to make sure that the bridge is there and 
that we have treatment and ongoing supports once the 
individuals are outside the walls in order for them to realize 
a life in the community.
    Mr. Cummings. The--when you--when we--you know, it's 
interesting. This is--I mean, I've heard a lot of testimony 
with regard to drug treatment, but this is the first time I've 
heard about this co-occurring. That's the first time I heard of 
it. This is amazing. I mean, I knew it, but I never heard 
anybody really talk about it. And I was just wondering, does--
is this something that SAMHSA has sort of now said, we got it 
and this is something we're gonna just work on, or was this 
something that SAMHSA pretty much had long before you even got 
there and just never talked about it? You follow me?
    Mr. Curie. Yeah. I understand.
    Mr. Cummings. Because I think it's a very--I mean, that is 
a very important point.
    Mr. Curie. There have been some efforts within some of 
SAMHSA's staff to begin with operation address co-occurring, 
but SAMHSA, as an overall agency, has never stated it as a 
major overall priority.
    Mr. Cummings. Right.
    Mr. Curie. And we are--Congress requested that SAMHSA 
address co-occurring and a report was due in October, which 
I've very pleased with, but this is a major priority that we've 
established in the last few months since I've come aboard. 
Because, again, we know more today than we ever have before and 
the data, I think, is very compelling that we need to make sure 
our systems of care are addressing the real issues that are at 
play in the people that are in our system already.
    Mr. Cummings. It has been estimated, I think, that about 
1.4--1.3 million people need treatment, but only about 800,000 
are getting treatment and I'm just wondering, first of all, do 
you believe that there should be treatment on demand?
    Mr. Curie. Do I believe there should be treatment on 
demand? I believe people should have, when they're--especially 
when they're ready for it, because we do know denial is a major 
issue around addictive disorders. So, when someone is ready to 
receive treatment, we need to make sure that we have the access 
to care when they're ready to receive it.
    So I think we do need to and I think the President is 
committed to addressing that treatment gap issue, but what 
we've found in the Lake Tahoe survey is that there were about 
3.9 million individuals who have a substance abuse disorder 
based on the response to the survey. Out of that, there were 
about 381,000 individuals who recognized they had a drug and 
alcohol problem or issue. Out of that number, 129,000 
recognized they had an issue, tried to seek treatment, could 
not find it. And, so, that is the population we're going to be 
working with States with these additional dollars that the 
President has put in the budget to try and establish a plan by 
State to especially address that issue or that population of 
individuals who know they have a problem, but were unable to 
obtain treatment. We think that's a major gap that needs to be 
filled as quickly as possible.
    Mr. Cummings. Do you think, Dr. Curie, that the public is 
getting it? That is, you know, just a moment ago, I talked 
about Director Walters' visit and how 12 people talked about a 
$100 a day habit, plus, with no jobs. And, you know, sometimes 
we wonder--I wonder whether the public understands how all of 
this is interrelated----
    Mr. Curie. Uh-huh.
    Mr. Cummings [continuing]. And how the quality of life--
their quality of life is affected. I mean, do you get the 
feeling that the public understands that it has a commitment to 
making the changes and----
    Mr. Curie. I think----
    Mr. Cummings [continuing]. The different resources for it 
to address it?
    Mr. Curie. I think we still have a ways to go before the 
public fully gets it. I think, for example, when we talk about 
this issue, especially the connection with the criminal justice 
system, a major part of the education needs to be clarifying 
with the public that we're not talking here about the older 
notion of rehabing criminals; we're talking about individuals 
who have an addictive disease disorder that gets them in 
trouble with the law----
    Mr. Cummings. Uh-huh.
    Mr. Curie [continuing]. And that it's a treatable disease 
and disorder. And that, once it's treated and that person 
attains recovery, then we need to assure that we're 
facilitating and sustaining that recovery. The person has some 
responsibility for themselves around recovery; that's what it's 
about, but there are various model programs that show us that 
it really does work and that return back into the criminal 
justice system is drastically reduced when you address 
substance abuse.
    And, so, I think it's--I think education of the public is 
going to be critical in this process.
    Mr. Cummings. Just one last question, Mr. Chairman.
    You know, I think people have a tendency, Dr. Curie, to say 
when they hear about a person, the kind of people you just 
talked about, they say to themselves, you know, it should--he 
shouldn't have done it. You know, that serves him. He shouldn't 
have gone out and used that crack cocaine. And I was telling 
some people earlier that, in talking to recovering addicts in 
Baltimore, a lot of them told me that something like crack 
cocaine, as soon as you use it--and they say particularly with 
regard to women--this is not a scientific survey I've done; 
this is talking to people--that it's almost instantaneous 
addiction.
    And I just--and, so, when you say what you just said, when 
you also have that group of people who are saying--the public 
saying, well, that serves him right, they shouldn't have gone 
out and done that, I mean, that's really a tough--it becomes a 
tougher sell. Would you agree?
    Mr. Curie. Absolutely. And I think educating people on the 
results of programs, I think tracking the data, sort of called 
the re-entry court here, for example, and it is going to be a 
great help, but I think we are up against--I would agree with 
you.
    Mr. Cummings. Thank you very much.
    Mr. Souder. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Curie, let me thank you for your testimony.
    You know, the more I'm looking at this--the issue and the 
more I listen to discussions and, as we try and analyze and 
figure out how much headway we're making, I am trying to come 
up with a definition of successful treatment. Would you share 
what the department might view as successful treatment?
    Mr. Curie. Yes, I would. And let me share that from a 
systems perspective service first. We've been able to conclude 
that treatment reduces drug use and benefits society. We did a 
survey, a 5-year study, that was conducted by our Centers for 
Substance Abuse Treatment. And a total of 4,400 clients were--
who received substance abuse treatment services from 78 
programs were reviewed and the result was the following--and 
this is how we would define success in terms of outcome: 50 
percent, there was a decrease in drug/alcohol use 1 year after 
completing treatment compared to a controlled group who did not 
receive treatment; 19 percent increase in employment and 
income; 43 percent decrease in criminal activity; 43 percent 
decrease in homelessness; 53 percent decrease in alcohol and 
drug-related medical visits.
    And, again, people who, when they are addicted, their 
medical records typically are like this. And once they are 
recovered, their medical records are a lot thinner. Fifty-six 
percent decrease in sexual encounters for money or drugs and 51 
percent decrease in sexual encounters with an injection drug 
user.
    Again, I think that indicates progress and success and 
shows that treatment does work. And so, I think we need to 
focus on, again, more than just not using drugs, but what type 
of life does the person--are they able to have? And do they--do 
they get a job or do they have day-to-day activities that they 
find meaningful? Again, safety plays a role. Do they have 
meaningful relationships? Those are the outcomes we need to be, 
I think, constantly looking at to see if we're succeeding.
    Mr. Davis. Since we kind of noted these, we also know that 
the vast majority of the individuals who are addicted and end 
up in the criminal justice system now have two problems--one, 
they have an addiction; two, they have a criminal record, which 
makes it more difficult for them to obtain employment--is it a 
part of the Department's effort to also help educate the 
general public to try and soften the difficulty so that ex-
offenders or individuals who have been addicted will have 
opportunities to work?
    Mr. Curie. Absolutely, that is a priority. Secretary 
Thompson feels very strongly that we need to be collaborating 
with justice addressing an issue of what we would call a double 
stigma. You're exactly right; people with an addictive 
disorder, there's a stigma anyway against drug addiction, and 
you put a criminal justice record on top of that and/or an ex-
convict type of status, you're talking pretty heavy stigma.
    So I think one of the efforts we can put forth is in 
educating the public. I think it's partly you pave a way for 
individuals, there's also prevention in one sense. So our 
education efforts should not only be addressing with youth and 
young people the dangers of drug and alcohol use in those 
efforts, but I think there needs to be a general awareness 
campaign of a type of public safety. And I think one way we can 
get at that is helping the public understand that we're talking 
more than just public health here; we're talking about if we 
can really make an impact on people cycling in and out of the 
justice system. It's an issue of also safer neighborhoods. And, 
as you well know, it's very easy to sell issues around getting 
tough on crime and law and order. It's tougher when you begin 
to overlay that with a treatment, but if you tie it in and let 
folks know that forced treatment in prison--you get a captive 
audience--does work, and the indicators are that it does take 
hold, then we have a responsibility to assure that we're giving 
support for recovery outside of prison. And if we can 
demonstrate to the public that the neighborhoods that they live 
in are safer because of that, I think that's something that 
could get the attention of the public at large, as well.
    Mr. Davis. I appreciate that, because my question was 
generated, just last evening, my wife--and my wife is the 
president of our local NAACP and they receive work 
opportunities from different companies, and she was reading one 
and we're going through it. And it stated very specifically 
that individuals who had drug problems or who had had drug 
problems or who had had a felony conviction pretty much need 
not apply.
    Mr. Curie. Yeah.
    Mr. Davis. The job was a laboring position that required 
heavy work and being outdoors. But, at the end of it, it simply 
said pretty much that individuals with these two conditions 
need not apply.
    Mr. Curie. Well, I would add, Congressman, because I think 
that, unfortunately, is not atypical; that's why this 
initiative we have with re-entry courts involving the 
Department of Labor is, I think, going to be critical. And I 
think one way we can get at the truth is if the Federal 
Government has true collaboration that gets translated locally.
    Mr. Davis. Yeah. I appreciate that and appreciate your 
comments, because, in the State of Illinois, for example, we 
have 57 job titles that an ex-offender cannot hold. You can't 
be a barber, you can't be a beautician, you can't be a nail 
technician, you can't work around a school, you can't work 
around a day care center, you can't work in a hospital. Even if 
you're a janitor or a maintenance person or clearing the 
grounds, it does not matter; you are barred. And, so, you 
wonder where are they going to work? Of course, in many 
instances, they're not going to work and they're going to end 
up back in the penitentiary.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I wondered, too, in your grant 
application, are you--do you have a way to measure these 
accountability standards that you've put out? Is that going to 
be part of the grant application?
    Mr. Curie. Yes. In fact, we do have an evaluative component 
that, up front, we delineate in terms of what type of outcome 
we're going to be measuring.
    Mr. Souder. That--I also wanted to comment in response to 
Congressman Cummings' question, that, hopefully, we can move 
some legislation, because termination of insurance coverage is 
one of the primary reasons people are booted out of an alcohol/
drug rehab program or even a mental health program. And 
Congressman Ramstad has introduced legislation in the House. 
Senator Wellstone has several things in the Senate and it is 
very difficult, because it's potentially costly. We're trying 
to work through that, but I've worked with Congressman Ramstad 
in the House to try to see if we can do that in a way that 
doesn't cost people their total health coverage and caps it at 
some limit. But we have to figure out a way to cover that gap 
and, in some degree, your funding can do it.
    And we also need to look at the insurance industry and 
business coverage, because, clearly, it's one of the primary 
reasons for lost work time for those who can get a job, is we 
can rehab them while--before they lose that job through their 
insurance and we can avoid some of the problems that 
Congressman Davis voiced.
    And, last, that treatment is--and we talked when I took 
over the subcommittee and Congressman Cummings became the 
ranking Democrat on the committee about the need to continue to 
focus attention on treatment. It's clear that we have to keep 
the nuisance from coming in and prevention, but the large 
percentage of the drug and alcohol problems in America are 
concentrated in an intense user population, and that's what's 
really been driving, as we see around the world.
    Yesterday, I met with some people who are trying to tackle 
the problems of drug treatment in South America because, as 
we've consumed more cocaine and heroin in the United States, 
they've developed more production. They didn't used to have the 
problem. Now, each year, their percent's small compared to our 
U.S. problem that's doubling, and our problems spread around 
the world.
    Last fall, Congressman Cummings and I were in Rome. We met 
with the King of Afganistan and that was one of our questions 
there, because they've been exporting the heroin. As we met 
with our embassy there and elsewhere we're seeing these drugs 
from around the world, our problem becomes interconnected. 
Unless we can tackle the heavy consumers here and elsewhere, 
the problem merely builds because people are going to supply as 
long as there's a market.
    I thank you very much for being here today, for your 
dedication. I'm sure we'll be hearing from you as we do 
oversights to see how your stated goals are actually being 
implemented through the next year, because this is one of the 
toughest categories to challenge--the toughest challenges we 
face in how to get accountability effectiveness with the amount 
of treatment dollars we have. And we'll be following up with 
that and also this co-dependency question. That's really the 
first time we've had that come out in a hearing since I've been 
in Congress and appreciate you raising it today. Thank you very 
much.
    Mr. Curie. Sure.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Just one other thing, Dr. Curie. I hope that 
you will continue to stay on the practical road that you're on. 
I think when we've been in this political business, you know, 
for a long time, you--you know, some people come along and they 
see things for what they are and they come up with solutions to 
truly try to get to the problem as opposed to just talking 
about it, and you seem to be really on the road to the 
practical solution road. And, you know, it's really a breath of 
fresh air and I really do appreciate, you know, what you're 
doing and I hope you will continue to, you know, spread that 
practical word, because a lot of people that I'm sure you well 
know are depending on you.
    Mr. Curie. Thank you very much, and I appreciate that.
    Mr. Souder. Thank you.
    If the second panel could now come forward, Judge Surbeck, 
Judge Gull and Judge Bonfiglio.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all witnesses answered 
in the affirmative.
    As I mentioned, this is an oversight committee and we do 
this. You're now part of the favorite committee that's done 
everything on--from the travel office to Waco to the China 
investigations and, because we, as a House committee that does 
oversight over community branch implementation and legislation, 
that's why we go through this process and appreciate you being 
willing to do that.
    Judge Surbeck, who is the re-entry court initiative in the 
superior court criminal division and one of the certainly most 
innovative programs in America right now, and we look forward 
to hearing your testimony today.

     STATEMENTS OF JOHN F. SURBECK, JUDGE, RE-ENTRY COURT 
INITIATIVE, ALLEN SUPERIOR COURT, CRIMINAL DIVISION; FRANCES C. 
    GULL, JUDGE, DRUG COURT, ALLEN SUPERIOR COURT, CRIMINAL 
DIVISION; AND DAVID C. BONFIGLIO, JUDGE, ELKHART SUPERIOR COURT 
                               VI

    Judge Surbeck. Thank you very much. Thank you for the 
opportunity and privilege to be here to speak with you 
gentlemen today and to provide this testimony.
    I provided a brief overview. I'm not going to read that, 
but perhaps touch on some of the elements of it. About--just 
about 2 years ago this time, spring of 2000, I received a call 
from Sheila Hudson, our director of Community Corrections, who 
is, in fact, here in the audience and who has been vital to the 
creation of re-entry court. Sheila called me and said that 
she'd received a call from an old friend of hers, Terry 
Donahue, who is an experienced advisor staff person to the 
Department of Justice and that, at the request of our mayor, 
had wanted to address the crime problems in Fort Wayne. She had 
called me, saying that they wanted--wondered if I would be 
interested in being involved; they thought it was important to 
have a judicial perspective, and I certainly agreed.
    That came in a very timely way. I had been a criminal 
defense lawyer for about 16 years and had been on the bench for 
about 14 years. And, at that time, I was becoming quite 
frustrated with the fact that I was seeing--at the end of 30 
years, I was seeing three generations of people through our 
system. The first generation, I had represented as a criminal 
defense lawyer, the second generation would have--which would 
have come on the cusp, if you will, I either represented or I 
sentenced as a judge early on in my career. And, now, I was 
seeing the third generation, and it didn't seem like anything 
that we were doing was making an impact.
    It's certainly very easy to just send people to jail, as I 
think you gentlemen have discussed and you are all aware. On 
the other hand, change of behavior is something else again 
entirely. We discussed how to approach this problem, the three 
of us--Terry and Sheila and I--and arrived--after some 
brainstorming, had arrived at the fact that returning offenders 
were a significant problem in the community.
    Literature that we reviewed at the time seemed to indicate 
that about 63 percent of offenders returning from a Department 
of Corrections-type setting were re-offending within a year on 
either--as a result--excuse me--were being returned to the 
penitentiary as a result of either new offenses, re-offending 
or as a result of repeated violations of technical rules and 
parole and probation. We decided that if we could address that 
population and those return--that returning issue, that we 
could significantly address the crime problem as we saw it.
    We went about designing a program based upon several--our 
design is nothing terribly new, other than being a new or 
innovative combination of some existing concepts in justice, 
one of which is restorative justice. That is a coming concept 
that says that, instead of dealing with the State and the 
offender in a crime, we need to deal with not only the 
offender, but the victim of the community. And only if we 
satisfactorily deal with all three of those parties do we 
effectively deal with the crime.
    Also, a relatively new judicial concept is part of the 
issue of problem-solving courts. Any number of the drug courts 
are one of them. Other problem-solving courts would be, for 
instance, I think the grand-daddy is considered the Manhattan--
midtown Manhattan court that provides services for offenders as 
opposed to putting offenders in jail, letting them stay a few 
days, dump them back out and start the cycle again rather than 
providing treatment after assessment. And, of course, drug 
courts, if you will, are all familiar with and, particularly, 
that part of drug courts in which the judge plays a central 
role and is actively involved with offenders throughout the 
process opposed to--as opposed to just at one end.
    So we put together the re-entry court, as I say, based upon 
three concepts. We use the community corrections as a receiving 
point from the Department of Corrections. They come into our 
system, they are assessed, do a forensic evaluation. Based upon 
that evaluation, we create a re-integration plan of which is 
imposed by the Court, Which will include things like jobs, 
places to live, counseling for necessary issues and also 
provide some mentoring. In that area, our faith-based community 
has been particularly effective in stepping up and taking that 
role to provide positive modeling for these offenders, and it's 
been quite effective. They appear before me on a regular basis, 
similar to the drug court type of protocol.
    We have a couple other things. I know that we're short on 
time, but a couple other things I do want to mention and that 
is that we have done most of what we're doing based upon a re-
allocation of resources as opposed to an application for large 
Federal grants that, of course, tend to run out. And, when they 
run out, then everyone has a problem. Rather, we have, in 
partnership with the Department--Indiana Department of 
Corrections, they have funded our program through Community 
Corrections through the savings that they are receiving from 
the folks that we take and, hopefully, that we save from coming 
back. We are doing a thorough and intensive process impact 
evaluation over a period of 2 years. That's being conducted by 
Arizona State University and a Dr. Alan Brown, who has served 
on a regular basis for the Justice Department in the past.
    The other--the only other issue that I wanted to mention 
and in your request and invitation to be here, and that was 
what the Federal Government could do. One of the things that 
we're finding is that there seems to be significant 
impediments, either statutory or of a policy nature, that tends 
to prevent our offenders, our population, from receiving 
benefits to which they would appear to be entitled. That seems 
to be a policy-type thing, whether it be in job placement, 
whether it be in public assistance/welfare sorts of programs 
and housing. There are various impediments to folks with a 
felony history. Those are impediments that we need to remove in 
order to provide assistance to these folks in order to 
effectively and positively re-integrate these people back into 
the community. And on that--it's on that issue that I would ask 
your assistance.
    Mr. Souder. Thank you very much, and we'll have questions 
after we hear all the testimony.
    The next witness is Judge Frances C. Gull, the only 
superior court and criminal division who's running the drug 
courts. And let me say, as I'd be remiss if I didn't 
acknowledge the long-term commitment of Judge Shiedberger, as 
well to the drug courts. This is one of the most 
enthusiastically supported programs in Congress. And we've had 
our fair battles--fair share of battles here in Allen County 
with drug courts, but I have stood with this from the beginning 
on the House floor and here. I think expectations are on the 
out-of-whack as far as how--how both Judge Surbeck's program 
and your program are suddenly going to change everybody, but if 
we can't make these kind of programs work, it's not clear what 
can work.
    I appreciate my colleagues and others who stuck with this 
and your willingness to lead the court now. She was one of our 
lead deputy prosecutors and then elected judge, and it's great 
to have you here today to talk about the drug court. Thank you.
    Judge Gull. Thank you, Congressman. I'm glad to be here. 
I'd be remiss in not acknowledging that, in 1997, Judge 
Shiedberger began the pilot drug court project for Allen 
County. Our drug court, as most drug courts throughout the 
country, target nonviolent, substance-abusing offenders in the 
expectation that judicial intervention will interrupt the cycle 
of addiction and crime that you've heard about--repeatedly 
heard about, I might add. This is a nationwide movement and it 
recognizes the importance of treatment and acknowledges that 
treatment without accountability, as Mr. Curry has indicated--
or, Mr. Curie--excuse me--has indicated, is ineffective. Though 
offenders are presented with the option of intensive drug 
treatment in lieu of incarceration or jail or prison, it's 
empowering the authority of court that is utilized to achieve 
what's intended to be a high degree of accountability. These 
offenders are continually monitored with judicial supervision, 
mandatory drug testing, programmic case management, 
surveillance and enforcement, intensive treatment and 
counseling, education, important community stabilization and 
employment.
    As I said, our drug court treatment program began in 1997 
as a pilot project. Further development was possible through a 
series of funding initiatives. We've received modest 
appropriations from city and county block grants, small grants 
from our local Allen County Drug and Alcohol Consortium and a 
major grant from the U.S. Department of Justice Drug Court 
Program Office, which was impetus to get off of the pilot 
project and on to a major commitment by all three of the judges 
in Allen Superior Court Criminal Division to support this 
program and to, again, target the nonviolent offenders.
    The offenders are generally those charged with Class D 
felonies for possession of a controlled substance or 
paraphernalia. The offenders enter a plea of guilty and charges 
are dismissed by the prosecuting attorney after successful 
completion of the program. The prosecuting attorney is the gate 
keeper, and I think in most drug courts across the country, the 
prosecutor is the one that determines eligibility. The 
prosecutor is the one who agrees to put the offenders into the 
program and is it the prosecutors who make the recommendations 
to the Court if offenders are continually violating treatment 
programs, not showing up or testing repeatedly dirty and 
basically making a tremendous lack of progress. That is the 
prosecutor that moves the Court to re-docket the offense and 
resume prosecution.
    Our court has narrowly defined nonviolent offenders to 
exclude individuals who have criminal records for sex offenses, 
those who have a record of convictions for violent offenses, 
those individuals who have outstanding detainer, warrants or 
past parole/probation violations. It's our belief that those 
offenders have indicated that they're not willing to change. 
And you've heard from Mr. Curie that forced treatment can work 
and it does work, but there comes a point where we have to, 
with limited resources, if somebody is going to change, we can 
help them along that path, but we do have limited resources, 
unfortunately.
    Again, the prosecutor is our gatekeeper and there is a team 
approach. The prosecuting attorney reviews incarcerated 
defendants pretty much immediately after they've been arrested. 
The goal is to get them into the program within 72 hours. The 
offender is the one that has the final say if he or she chooses 
to enter into the program. It's an 18 to 36-month program with 
intensive treatment, going from the traditional intensive 
outpatient and inpatient treatment. We offer and require as a 
part of the treatment plan that individuals be assessed to find 
out what are their specific needs. We then tailor a treatment 
program for their specific needs and they go through phases of 
the program.
    Their progress is monitored by case managers through the 
drug court. They make weekly or biweekly or monthly appearances 
in court to meet with the judge and to have the judge basically 
pat them on the head and tell them that they're doing well or 
to kick them in the rear and indicate that they're not doing 
well. Those individuals that just repeatedly indicate that 
they're not willing to make any kind of progress, the 
prosecutor has the option and oftentimes will re-docket those 
cases and resume prosecution. It's the carrot on the stick. The 
carrot in the case is going to be dismissed and you're not 
going to have a felony conviction. If you fail, the individual 
is charged with the felony conviction. So the carrot is you 
must comply with the program, be successful, become a 
productive member of society, support your children, get a job, 
obtain your education, get a GED; those types of things, and, 
in result, you get the charges dismissed.
    National statistics from American University indicate that 
drug courts are expanding across the country. As of March of 
this year, there were 793 drug courts operating in the United 
States. These programs have enrolled 200,000 individuals in 
treatment and rehabilitation instead of incarceration. The 
estimated number of graduates from those programs is 74,000 
with, currently, 77,000 individuals enrolled in drug courts 
across the country. Our programs have, approximately, 300 
participants; 131 of those participants successfully completed 
the program and graduated as of December of last year. These 
are successful people who broke the cycle of crime that was 
committed to support the addictions and these are people that, 
once again, are productive members of society.
    Mr. Souder. Thank you very much.
    [The prepared statement of Judge Gull follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.011
    
    [GRAPHIC] [TIFF OMITTED] T5124.012
    
    [GRAPHIC] [TIFF OMITTED] T5124.013
    
    [GRAPHIC] [TIFF OMITTED] T5124.014
    
    Mr. Souder. We will next hear from Judge Bonfiglio from the 
Elkhart County. Fort Wayne is basically 200,000 people with 
another 100,000 in the county. Elkhart County is--Goshen is 
about an hour and-a-half northwest from here. There, the 
largest city is Elkhart, which is about 50,000, Goshen is maybe 
30 and then lots of rural area.
    So we're going to hear from some of the witnesses in the 
second panel, too, about the mix out of urban and rural. So 
he's got a particular challenge, also a tremendous increase in 
Hispanic population, probably the most in the State of Indiana, 
other that East Chicago.
    It's an honor to have you here with us today and look 
forward to hearing your testimony.
    Judge Bonfiglio. Thank you very much. In my written 
testimony, I focused on my nearly 16-year experience on the 
bench hearing cases of abuse, neglect and delinquency. In 
brief, I'd like--I would observe that most of the times, our 
juvenile courts function like the emergency room of a hospital. 
That is, a horrible accident occurs and the patient needs life-
saving and very expensive services. To prevent the accident 
saves lives and enormous human and financial costs. The same is 
true with the lives of children. To prevent the problem is 
cost-effective and saves human suffering.
    In juvenile court, most of the children who come through 
the door with severe problems have been created through the--
through what's occurred to them, neglect and abuse. To prevent 
delinquency, we must prevent the abuse and neglect of the 
child. Secondary prevention is certainly possible if, when 
children who are abused and neglected come to our attention, 
they receive effective and comprehensive treatment. Every child 
that acts out delinquently in the school and the community is 
not a victim of abuse or neglect, but there is a very high 
correlation between the two.
    Other children are at risk because of the influence of 
illegal drugs, criminal gangs and violence in their environment 
in which they live. It's been my personal experience that 80 to 
90 percent of all the cases that I heard involved alcohol and 
drug abuse in some manner. The most effective tool I found in 
successfully fighting the most serious of these problems is the 
drug court and Judges Gull and Surbeck have given you certainly 
views of the kinds of things that are going on in the re-entry 
courts and the drug courts. What is different in the juvenile 
court in our community is the development of the residential 
program. That is, we use intensive cognitive behavioral 
approaches. We actually put kids into residential treatment.
    We started in 1998 and--1997, and we started in 1998 and 
we've actually seen in 1999 and 2000 a slight decrease in the 
number of felonies that the prosecutor filed in our juvenile 
court, and I attribute that to the particular drug court 
offenders that were successfully treated in that period of 
time. It's only when the community as a whole perceives that it 
has a joint say with the justice system that delinquency 
prevention and successful intervention can be accomplished.
    A majority of prevention occurs at the hands of community 
organizations. The court, as well as other parts of the 
criminal justice system should collaborate with community 
organizations to help prevent delinquent behavior. The goal of 
collaboration between the court and the community agencies is 
the creation of what I would call continuing care for children 
and families. In most communities, and it's in our community, 
competition for finding and bringing conflicts in overlapping 
programs. Over--it's important to establish a culture of 
collaboration with the agency directors and staff and civic and 
government leaders and the courts can influence and help create 
that culture.
    One of the best accomplishments we've had in our community 
is the creation of a concept called Wraparound. This 
intervention method works for both prevention and intervention 
and it works in any age of a person, from a child to an adult. 
The essential elements of the Wraparound plan are built on 
family strength, forming a child and family team that includes 
family, friends, church members and the necessary 
professionals. In other words, the natural support system, plus 
the professional that needs to be involved. If the natural 
support system doesn't exist, then we help the family create 
one.
    To intervene early in children's lives at the first sign of 
trouble is also an essential piece, but well planned programs 
take into consideration the use of development--developmental 
issues can be successful at any age. Our youth agencies, 
including at our schools, our churches and local government, 
are the proper tools to prevent delinquency. And one of the 
best agencies to represent here today in our community, Kevin 
Deary will be speaking to you shortly.
    The ingredient that makes for successful prevention 
programs, I believe, are connecting the child with another 
human being, such as an adult with another person that--that 
can communicate with them on a personal and human level, 
providing life skills training for children, presenting and 
providing parenting skills for parents, as well as providing 
recreational and social activities.
    Healthy Communities and Healthy Youth-Forty Development 
Assets Intiative addresses these points and more. The assets 
are positive building blocks that young people need to grow up 
healthy-principled and caring individuals. And, in Allen 
County, you have a great example in Judge Pratt, that has taken 
a leadership role in helping establish developmental assets in 
this community.
    The juvenile and family court is an excellent place to make 
the connection between children and family. When children or 
their parents enter the justice system for any reason, if it be 
delinquency, if it includes marriage and adoption, there should 
be a short assessment to determine what their needs might be 
and what community interventions could help them. A unified 
family court hears all the cases involving the children and has 
sufficient resources to address those needs. Establishing 
mediation and dissolution marriage cases and seminars for 
divorcing parents are really steps in the right direction.
    I believe, to be successful as a community and as a Nation, 
and controlling crime and improving all our lives, it really 
comes through addressing the needs of children. I've seen the 
children, and the children before me for many years, their 
hearts and minds, that they had great talents and gifts, and we 
tried to help them become healthy, well-functioning, 
contributing members of society.
I think it's all our responsibility to do that, and it was 
certainly my pleasure when I was on the juvenile court bench to 
participate in that. And I thank you for the opportunity to 
testify.
    Mr. Souder. Thank you.
    [The prepared statement of Judge Bonfiglio follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.015
    
    [GRAPHIC] [TIFF OMITTED] T5124.016
    
    [GRAPHIC] [TIFF OMITTED] T5124.017
    
    [GRAPHIC] [TIFF OMITTED] T5124.018
    
    [GRAPHIC] [TIFF OMITTED] T5124.019
    
    [GRAPHIC] [TIFF OMITTED] T5124.020
    
    [GRAPHIC] [TIFF OMITTED] T5124.021
    
    [GRAPHIC] [TIFF OMITTED] T5124.022
    
    [GRAPHIC] [TIFF OMITTED] T5124.023
    
    [GRAPHIC] [TIFF OMITTED] T5124.024
    
    [GRAPHIC] [TIFF OMITTED] T5124.025
    
    Mr. Souder. Judge Surbeck, if you and Sheila, to the extent 
that you haven't already done so, if we can, for our hearing 
record, have a detailed outline of the programs you're working 
with and some of the things that you outlined. I know you have 
a longer statement, but I want, because it's a--kind of an 
innovative combination of projects, if you can give us some of 
the materials.
    Judge Surbeck. Sheila and I will meet next week and we'll 
put together a packet of materials for you. I apologize for not 
having that all together today for you.
    Mr. Souder. Well, that--as you know, this is a very short 
presentation, and the way we do this is field questions, 
anyway. But the key thing is we're building a hearing book, 
too, that we can refer back to and relook----
    Judge Surbeck. Yes, sir.
    Mr. Souder [continuing]. At in the different places that I 
want to commend you on, on pursuing the concept of restorative 
justice. I know that this has been a big thing with prison 
fellowship and it's a big part of the healing process. And I 
think it's encouraging to see that, in the justice system, 
we're--we're looking toward a creative solution to that, as 
well as mentoring.
    Could you outline a little bit for us, because, in trying 
to figure out how to make these programs work better, it's 
always helpful to understand what stumbling blocks there are. 
Just like in the drug court, just because there's stumbling 
blocks doesn't mean the problem is within drug courts; the 
thing is how can we make them more effective. And have you had 
difficulty finding mentors and is it hard to match the people 
up? And what is the reaction of the people who have had the 
criminal act against them? Many people may be very forgiving. 
Are others not?
    Could you go through a little bit of some of your being at 
the cutting edge of some of this type of thing in a systematic 
way.
    Judge Surbeck. I can't give you a good final answer on any 
of those things. They are all things that we are working on and 
working with. I've been very fortunate to have several pastors 
who stepped up right away and were willing to create a 
mentoring program. As I understand--well, not as I understand. 
It is a fact that one of those pastors secured COPS grant 
through the COPS program, a Federal program, and has trained 
mentors. He was originally assigned to be an acquaintance sort 
of thing between pastors and the police department. Apparently, 
once he was done with that, his graduate pastors said, Well, 
now that we've graduated, what are we going to do? So the next 
thing was to move on to this mentoring project. We've launched 
that in January. We're still working with it.
    One of the things we wanted to be very careful about was 
that mentors be safe; and, therefore, we have provided specific 
additional training for mentors and we are working along in 
that process. We have struggled a bit with communications. We 
are not, in the criminal justice system, perhaps we're not used 
to working with the lay system and the lay system is not used 
to working with us, but we've worked along. As we've had 
problems, everyone's been willing to put them on the table and 
figure out how to deal with them. And we're working along to 
get that done.
    I have found that the mentoring is absolutely essential. 
During the period of time that we were developing the formal 
mentoring program, there was another pastor who stepped up and 
said, look, there's a void here and it needs to be filled and I 
know you're going to fill it formally soon, but it needs to be 
filled now. And, as a result, he's been in my courtroom every 
Friday morning with several members of his congregation and he 
has started a family support program of his own, which has been 
very effective. And those two organizations together have been 
phenomenal.
    Mr. Souder. You mentioned also about the impediments. One 
of the problems I'd like you to elaborate on that a little bit, 
when I did a controversial drug testing amendment, more on 
implementation, but the substance of it relates to probably 
some of the impediments that you're talking about. Because 
originally--when the bill was originally drafted, if you 
committed a drug crime and lost your loan, we added that if you 
went through a drug--if you took a drug test--if you went 
through a treatment program with drug testing, you could get it 
back. And the question is how do we build in an accountability 
and prevention thing? Because many of the--what I assume your 
impediments are, we're saying, if this and this happens, you're 
not eligible for a government grant. And we want to make sure 
that there is a consequence of people's actions, yet that we 
also have a forgiveness component and that can't be spiritual 
in nature, even though I believe in spiritual changes change 
people's lives; that is an effective representative way to do 
it.
    So what would be some proxies that we could use to remove 
impediments? Would drug testing be part of that? Would a period 
of time? Would a--that you've gone through a program and then 
gone through a period of probation? Because, clearly, what 
Congressman Davis and Congressman Cummings are talking about 
and we all know we have these and, at the same time, the 
general public wants an accountability. And how can we build in 
a forgiveness--a measure of forgiveness and accountability 
simultaneously?
    Judge Surbeck. I cannot, at this point, provide you with 
recommendations for specifics. The one thing I did note as you 
were speaking, one of the suggestions that you had was 
probation. The problem is my folks don't have that luxury of 
the population I'm dealing with. They're coming out of the 
penitentiary and they need services now. And I understand and--
and don't misunderstand I'm not being critical of the 
impediments that were placed there. They were placed there for 
good reason and with thoughtfulness. We are finding, however, 
at this point, that is counterproductive. For a long time, we 
thought that simply putting people in jail would make a 
difference. We are learning that it does not. Some people need 
to be put in jail for a very long time. The public needs to be 
protected from them in that fashion. Most of the other folks 
are going to come out sooner or later and, when they come out, 
as pointed out by one of the Congressmen, I believe Congressman 
Davis, that, frequently, they're coming out in worse shape than 
they went in. That's not to condemn the entire prison system, 
but rather to acknowledge the fact that, when they come out, 
these folks are going to need services and we need to find a 
way to provide those services. And we're finding that perhaps 
the impediments that we thought were productive at the time 
they were imposed are perhaps counterproductive, at least with 
this population.
    The other issue, I guess, I'm dealing with, and we've begun 
working with at the State level with FSSA and have had 
progresses from the Federal level from agencies involved in 
this re-entry initiative that's been created as a partnership 
between, I believe led by the Justice Department and including 
Labor, HHS, Education and HUD. And I believe through that 
focus, we need to develop some criteria for waivers of these 
impediments for this population, whether it be that these folks 
are involved specifically in a re-entry program; that, on that 
basis, they should be waived or on some other--I'm not sure 
what the criteria are yet.
    Mr. Souder. And that may be sufficient. And if I could take 
1 more minute here, that's a very--I mean, it's like a drug 
court, basically.
    Judge Surbeck. Yes.
    Mr. Souder. As long as you're overseeing an individual and 
there's an accountability if they violate. We've been doing a 
lot of border hearings and looking at how we can both 
facilitate Congress and try to catch terrorists and people 
buying drugs from coming across our borders. And we've come up 
with that mandate of looking at implementing and 
administration's about to announce a fast pass clearance for 
people who are regular users of the border, but what we've seen 
is some people then take that advantage of not having the 
checks to abuse it. The largest drug bust in the Montreal/New 
York border was actually somebody that had been pre-cleared.
    And, so, we've talked about having an extra punishment or 
there needs to be an accountability. And if you abuse the 
generosity of the general public and say, look. OK. We'll waive 
this because you're in a program, there also has to be a tough 
accountability if you abuse the generosity. Almost like you get 
a second chance or a third chance or a fourth chance, there 
needs to be some kind of accountability.
    I look forward to working with you, because this is one of 
the big challenges we have because it was one thing to lock 
them up 5 or 10 years ago when we went through that wave. Now 
what do we do?
    Judge Surbeck. Right.
    Mr. Souder. And our intentions are correct, but 
implementing is difficult.
    Judge Surbeck. Getting these people back in a positive way 
is a goal. In the meantime, the other goal is to protect the 
community and the process. And, therefore, the concerns that 
you've indicated are very well placed.
    Mr. Cummings. First of all, I want to thank all of you for 
being here. And we all have a common desire, and that is to 
address this drug problem effectively and efficiently. And I 
think this has been some of the most meaningful testimony that 
I've heard and I've been in Congress now for 6 years.
    I wanted to go to you, Judge Surbeck. I'm going to have 
some followup questions I have put in writing. We just don't 
have time here today. But I think if anything comes out of 
this, it's that you all get it. I mean, it's because you and 
I'm not trying to be funny. You all see the life. You all see 
it. I mean, a lot of people read about it in the newspaper, 
they see clips of it on the six o'clock news, but you see the 
tragedies that come across your--you know, I'm a lawyer. I was 
a defense lawyer before I came to Congress. So you see it--you 
see it every day.
    And you also see that--you also seem to get that you just 
don't throw away the key and throw them away, because the key--
somehow it opens--the door's going to get opened and they're 
going to come back. And I was just wondering, Judge, when you--
as an active person, I've never heard of this, that you have an 
agreement, whether it's formal or whatever, with the Department 
of Corrections because there's some savings based on what you 
do. And you know how these agencies are; they don't want to 
give up a dime. They don't--everybody's got their little turf 
and I know that's even how it is in Maryland. And I'm just 
wondering how do you get there?
    I mean, when, you know, you say to the agency, Look. You're 
going to save money. And I think you almost--it seems like you 
would have to actually be able to show them, you know, You're 
going to save, you know, $1 million. So they say, OK. Fine. 
We'll give you a hundred, thousand and that. Because I'm just 
wondering how you--how do you all get there. What is--I mean, 
is that done in legislation, done by the government, done by--
how does that work?
    Judge Surbeck. It's worked on a real personal level. I had 
for a very long time a very good relationship with officials at 
the Indiana Department of Corrections. Similarly, our at 
Community Corrections office, and Sheila Hudson has had an 
excellent reputation--excellent relationship, No. 1, and No. 2, 
a very excellent relation---or reputation in dealing with the 
offenders in this county. And, as a result of those 
relationships, we were able to go to them.
    Community Corrections is funded by the Department of 
Corrections. It's the community-based alternative section. So 
they're State-funded in the first place. Between our respective 
relationships with the Department of Corrections' officials, we 
were able to go to them and present them with a plan to bring 
offenders back through an established agency, Community 
Corrections, with the supervision of an established judge, both 
of whom they apparently respect. They were willing to say, That 
sounds like a good idea and we'll go with you for a while. 
We'll do a pilot with you.
    Mr. Cummings. And, Judge Gull, how much time does that 
take? I mean, when you all are supervising these--the people in 
the program. Say that you see them, I think you said sometimes 
once or twice a week. Seems like that would take quite a bit of 
time for a judge.
    Judge Gull. It does.
    Mr. Cummings. OK.
    Judge Gull. Uh----
    Mr. Cummings. And is that a part of a docket, like in the 
mornings on a Wednesday----
    Judge Gull. Yes.
    Mr. Cummings [continuing]. Or the mornings on a----
    Judge Gull. Yes. It's Tuesday afternoon. All day Tuesday 
afternoon. And it's not just the in-court meetings with the 
offenders; it's the administrative things that happen behind 
the scenes to ensure that the in-court process goes smoothly, 
where we had to enter into agreement with treatment providers 
on how many of our client they'll accept, on the different 
types of treatment that they'll provide.
    We realized after a couple of years that we were not giving 
people financial counseling or consumer credit counseling, so 
we've contracted that type of counseling out. It's--the in-
court time is the easy time. It's the out-court time that can 
get a little overwhelming sometimes.
    Mr. Cummings. How are you all? Do you all--are you all 
assigned to these courts or do you volunteer? In other words, 
does the chief judge say, You're going to do this?
    Judge Gull. I am the administrative judge of the division.
    Mr. Cummings. Oh. OK.
    Judge Gull. And we have our A, B and C felonies, which are 
our serious felonies--murder, rape and robbery--and I'm in that 
division. Judge Surbeck is in the D felony division right now, 
which is prostitution and theft. And Judge Shiedberger handles 
the drug cases that do not end up in the drug court 
intervention program. And we rotate those so that we can get a 
little bit of a different caseload every year.
    Judge Surbeck began the re-entry initiative and has been 
doing such a splendid job with it, that I decided 
administratively that he would stay with the re-entry process 
and to keep it going.
    Mr. Cummings. Well, he certainly looks very excited about 
it.
    Judge Gull. He is and he's very good at it.
    Mr. Cummings. Just one other question. What percentage--I 
mean, you may not have this figure--of the folks fail to do 
what they're supposed to do to stay in the program?
    Judge Gull. In drug court?
    Mr. Cummings. Yes.
    Judge Gull. About a third.
    Mr. Cummings. And is there one common violation?
    Judge Gull. Drug use.
    Mr. Cummings. OK.
    Judge Gull. Drug use or criminal activity.
    Mr. Cummings. Uh-huh.
    Judge Gull. We've had a couple of people that absconded, 
have been AWOL for a while and they finally do get picked up, 
they've been AWOL out on a binge. The biggest bulk of the 
people, however, choose not to go into the drug court program. 
We'll screen an individual who's been charged with possession 
of marijuana, they're eligible, they meet all the criteria and 
they--we believe they would be a very good risk candidate. 
We're excited to be able to offer them that opportunity, and 
they turn us down flat. And the reason that they turn us down 
is they tell us they'd rather do the time, the program's too 
hard, it's too much work. They would rather just take 
punishment, go and not have to deal with me on a weekly basis 
or the case managers that they report to or the treatment 
providers or going to parenting classes, get a job.
    I mean, it's not an easy program. The people that graduate, 
we're tremendously proud of those people, because it's hard. 
It's very hard.
    Mr. Souder. OK. Can I ask a followup with that? When we 
were in Baltimore 2 weeks ago, had a judge from the drug court, 
and I asked her that question, because, in Fort Wayne, I knew 
that one of our things is people turn the court down. They 
don't--it's not voluntary.
    Is that the difference, because we have a limited number of 
spots? I mean, I understand why it's more effective if it's 
voluntary, but, in their case, they didn't allow the choice.
    Judge Gull. I would really rather not give people the 
choice, but I don't have the staff and the resources.
    Mr. Souder. It's a dollar question.
    Judge Gull. Yes. It's totally financial. If I had six more 
case managers, two high-risk case managers, I would capture 
virtually all of the drug cases coming through. I'd also 
attempt to capture people that do crimes to support their 
habits. Right now, it's limited to possession. I'd like to get 
the prostitute that's committing acts of prostitution to 
support her habit. I'd like to get the thief who's stealing 
from Walmart to pawn the stuff on the street to support his or 
her habit. But, right now, I've only got three caseworkers, and 
that's just not enough to handle the population of people 
that's out there.
    Mr. Cummings. Just one last question, Judge Surbeck. The 
faith-based piece that--you know, I think when we talk about 
the community trying to help, I think that's a--I think that's 
a great idea. And I'm just wondering--I mean, other than the 
examples you cited to us, are there other pastors or priests or 
whoever coming to you, saying, you know, I think we'd like to 
try to do something to help some people?
    I mean, it--and I guess the thing that's just so 
interesting about it and, as you were talking, I thought about 
the drug addicts that I have known. And it's almost like, in 
many instances, if they're still on drugs, it seems like you're 
talking to a ghost of a person, because it's that you're 
getting they're not always honest and all that, and it just 
seems like I would assume that a church--for a church to take 
that on, some of their parishioners may be saying, well, wait a 
minute. I don't know whether we want to get into that. We are--
you know, we're religious and everything.
    But I was just wondering, do you see the number of people 
in the religious community expressing an interest in trying to 
help?
    Judge Surbeck. The simple answer to that is yes. I've been 
really impressed as these folks step up. I have--you know, I 
cited to you, too, one formal program as well as another 
volunteer pastor, if you will, but every Friday morning--I run 
re-entry court every Friday morning. We run it out of the 
police station on Grape Street, where they've provided us some 
space and built us a little courtroom and, every morning, I 
have a minimum of four to six pastors who are there. And 
they're there, they listen and, as they hear from the offender 
or sometimes from me a problem arising, they'll step up and 
say, Judge, let me talk to this fellow for just a moment, and 
it's amazing how they straighten things out.
    Mr. Cummings. Thank you.
    Mr. Souder. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Judge Gull, what has been the law enforcement community's 
reaction to the drug court?
    Judge Gull. Financially, as you might imagine, they were 
kind of skeptical, but once the program was explained to them, 
they've been very supportive. Our chief of police has been very 
supportive, our sheriff has been very supportive of the 
program.
    Mr. Davis. That's good, because I know that there are some 
law enforcement people who kind of bemoan the fact that the 
same people that they arrested, you know, last month, they see 
them on the streets or whatever. And I've heard that just in a 
number of times, so I'm very pleased to hear that.
    Judge Surbeck, you mentioned that, with the re-entry, 
housing might--it is a problem. Do you find in many instances 
where you have individuals who don't have a place to go?
    Judge Surbeck. Yes, sir. There's a significant number of my 
offenders who come out who are homeless. They're homeless for a 
couple of different reasons. No. 1, they may have been homeless 
when they committed a crime and were sentenced to the 
penitentiary.
    There's another large group, a group that I didn't 
appreciate was going to be there. Now, Ms. Hudson from 
Community Corrections and Terry Donahue from the Department of 
Corrections continued to tell me as we were brainstorming 
designing this thing that they're going to need housing. I kept 
saying, No. They can go home. They'll go home to their family. 
They come out of the prison, you know, we see all this stuff on 
TV and that kind of stuff that makes us feel warm and good that 
they're going to go home. A lot of families don't want them 
back. They've victimized their families just as they victimized 
the community and the family doesn't want them back for that 
reason.
    Some of them, the families, even if they're marginal about 
letting them home, they will not accept them. Well, we put 
everybody for the first 6 months, we put them on electric 
monitoring, and they are willing--family members who are 
willing to accept that clear inconvenience. There is a 
significant inconvenience to electronic monitoring about use of 
phones, use of computers, so on and so forth; and, therefore, 
families are reluctant to have them back. So we have a large 
number of homeless.
    Mr. Davis. And you would agree that a place to stay is 
actually a stabilizing factor in terms of trying to get people 
back and reacclimated.
    Judge Surbeck. Oh, absolutely. Well, I think any one of us 
know. I don't know what I would do if I didn't have a place to 
live, let alone, you know, have--I don't have a criminal 
history. I can't think of what I'd do if I didn't have a home. 
And then, when you add that to all the other problems these 
folks have.
    Mr. Davis. I'm going to try and make sure that I send you a 
copy of the legislation that Representative Souder mentioned 
earlier and that I introduced 3 weeks ago, which attempts to 
get at that problem in terms of creating what we would call 
living situations where individuals would, in fact--and we 
actually hope that, once passed, we'd be able to build about 
20,000 units over this year over a 5-year period and create 
stable situations where individuals would know. And we have a 
unique way we hope of doing it by using a model of low-income--
low-income housing tax credits so as not to be talking about 
another program where we're talking about big grant moneys 
necessarily, but getting private developers to become a part of 
it.
    And, so, I will make sure that I----
    Judge Surbeck. I would very much appreciate that. Thank 
you.
    Mr. Davis [continuing]. Get you a copy. The only other 
question I have is we just had our primary elections on Tuesday 
and, of course, a number of new judges were, in fact, for all 
practical purposes, elected, and I wish that we could send them 
here for a judges training. And, so, I thank you very much for 
your testimony.
    Judge Surbeck. Thank you very much.
    Mr. Souder. Thanks. I want to mention a couple of things. 
One is that one of the things that we ran into these housing 
questions is we had an innovative program down near the police 
station where it basically went under because one of the 
clients stole all the equipment and financially sunk the 
project. And we may even want to look at some kind of--you 
mentioned full housing--some kind of insurance for those of who 
are willing to come into this type of program, because it's 
devastating when they lose any income or their ability and 
they're dealing with high-risk clients. And it--and, often, 
very uncapitalized in the effort.
    The other thing is is we have to address very difficult 
problems of community reaction, but it has to be done. I mean, 
that--in Fort Wayne, I've talked to many people who are on the 
street or moving around, and we have many volunteer shelters, 
but not enough and particularly in the areas where people are 
moving back to. And it is a tremendous burden if we can't 
figure out how to address these problems.
    Also wanted to ask one last question of Judge Bonfiglio. 
What--the Wraparound concept is obviously the ideal way to go. 
It's also very expensive. Do you get a lot of private sector 
donations? Elkhart is an incredible giving community, a very 
interactive community. How much of the program you were talking 
about comes from private sector versus public sector funds?
    Judge Bonfiglio. When we started Wraparound, our United Way 
of Elkhart County, as well as the Community Foundation helped 
get it off the ground to bring in the trainers to train our 
probation staff office, our family and children staff, our 
court-appointed special advocates, but the real key in getting 
it continuing and actually making it work on a day-to-day basis 
is our community mental health center.
    And, actually, many of our kids are from families that are 
eligible for Medicaid. And, so, we're able to use local dollars 
and Medicaid dollars to really help fund the resources of the 
facilitators and the people that actually go out and meet the 
families, create the family and child teams. But what we found 
is that if you really were concentrating on kids and 
therapeutic care and high-cost residential, because that's 
where we had to begin because we had enormous deficits in our 
budget for that kind of care, if you can effectively wrap 
around service around a child, and it may not be their birth 
family--it may be a foster home or a therapeutic foster home--
if you can take them out of that $200 or $300-a-day treatment 
facility, meet their needs in a better fashion with a 
Wraparound plan, that may cost you some money, but certainly 
not $200 or $300 a day. So we see a real saving in our 
residential care budget.
    But, for the most part, the money comes from Medicaid, 
rehab and our community mental health center to provide the 
program. And we did have contributions from the private sector 
to get it started. And one of the pieces of a Wraparound 
organization is to have a contingency fund where, when you 
can't go to any other source in government to get something a 
family needs, you can go to a fund for small kinds of things 
that a family may need to get started on the Wraparound plan, 
and that's the community money from United Way and the 
community foundation.
    Mr. Cummings. Just wanted to thank all of you for being 
here today. And I just--as I listened to your testimony, I 
could not help but say to myself, you know, it's just so 
important. I'm just so glad you took the time to come to be 
here today. We need to hear these kinds of things. We need to 
talk to people on the front lines of dealing with these kinds 
of issues, and we really do appreciate you being here.
    I know, as judges, you're used to asking the questions and 
not having the people asking you questions and I know that, but 
we do appreciate it.
    The other thing that I hope is that--you all are truly the 
witnesses, because you are so--you're close to the situation, 
and there are a lot of people who I would imagine may not agree 
with what you're saying. And I've often said that if I, an 
African American, sat where you sit and said the same thing 
that you're saying, some people would say, Oh. Here they go 
again. And I'm serious about that. And I think that it takes 
all of us--all of us, black and white, who see the problems, 
because it's not a black problem, it's not a white problem. 
It's--it has no borders. The drug has no borders and I think 
that these are human problems, and I think that you all have 
pointed that out very clearly here today. And, as I've often 
said, we're all walking wounded, every single one of us. And it 
comes out clearly that you're trying to rehabilitate--truly 
rehabilitate some lives so that the people can go back out into 
their communities and support their children and support their 
communities and not be a burden on our society. And, so, as I 
said, I thank you very much.
    And to the others who will testify coming up, 
unfortunately, I have to get back to Baltimore. I've got a 4:05 
flight, but I'm sorry to miss your testimony.
    And I want to thank you, Mr. Chairman, because I think this 
is one of the best hearings that I've participated in, and I 
really appreciate it. Thank you.
    Mr. Souder. Thank you very much. And thanks to the second 
panel and thank you for coming.
    If the third panel could now come forward, Mr. Deary, the 
President and Executive of the Boys and Girls Club of Greater 
Goshen; Ms. Alisa Stovall, the Education Coordinator of Deer 
Run Academy; the Honorable Matt Schomburg, the Wayne Township 
Trustee; Mr. Mark Terrell, CEO of Lifeline Youth and Family 
Services; and the Honorable Glynn Hines, who's the Fort Wayne 
City Councilman.
    And if you could all stand, we need to do the oath.
    [Witnesses sworn.]
    Mr. Souder. I want to thank all of you for coming and 
appreciate your staff. I'm looking forward to hearing your 
testimony and we'll insert all the full testimony into the 
record. And, as I said at the beginning, each of you, too, also 
may have additional information you want to submit after you 
hear the questions and we may do some followup written 
questions to make sure that our--our record is comprehensive.
    Mr. Deary, we'll begin with you.

 STATEMENTS OF KEVIN DEARY, PRESIDENT AND EXECUTIVE DIRECTOR, 
BOYS AND GIRLS CLUB OF GREATER GOSHEN; ALISA STOVALL, EDUCATION 
  COORDINATOR, DEER RUN ACADEMY; MATTHEW P. SCHOMBURG, WAYNE 
TOWNSHIP TRUSTEE; MARK TERRELL, CEO, LIFELINE YOUTH AND FAMILY 
  SERVICES, INC.; AND GLYNN HINES, FORT WAYNE CITY COUNCILMAN

    Mr. Deary. It is, indeed, an honor and a pleasure to be 
here to discuss what's very near and dear to my heart, and 
that's the children of our country. I appreciate Congress's 
concern for the welfare of our children and your interest in 
hearing from a diverse set of practitioners here in northeast 
Indiana.
    If you hear a eastern accent, I'm originally from Boston, 
Massachusetts, which may throw you off a little bit. I've been 
out in Indiana for about 8 years, and it's truly a wonderful 
place to work and to work with children. Most of my time has 
been spent in Boston, Massachusetts and New England, and we've 
had tremendous growth. We've been blessed with the boys and 
girls over the last 8 years. We've gone from serving 211 
children to serving over 1,500. It was a privilege to be able 
to have Congressman Souder come up and take a tour of our 
facility, and I wholeheartedly agree that children are 
definitely our future.
    It was important to us, as we began to look around at our 
community and began to identify some of the turf issues that 
were impacting how we outreach to the children and the fact 
that we wouldn't let go of those turf issues. One of the things 
that we made and we were bound and determined to do was to 
outreach and break down some of those fences and invite other 
services to join with Boys and Girls Clubs so we could both co-
program. So some of the programs that we have at our Boys and 
Girls Club, we have a Boy Scout Troop, a Girl Scout Troop, 4-H 
program, we have an alternative program for middle school 
children who are academically and socially falling through the 
cracks. We work actively with probation, with court services, 
mental health, we have that Wraparound process that is--that 
many times has meetings in our facility based on our children.
    I was privileged to be able to work with the Honorable 
Judge Bonfiglio and on being one of the first people to sit on 
that committee to establish some of the guidelines of the 
Wraparound process. It was an honor and privilege to work with 
the case studies and to work with the children to be able to 
see an active difference. And if you take one thing--two things 
away today, Boys and Girls Clubs make a difference. Reaching 
out to children of youth service agencies, reaching out to 
children in a preventative force makes a difference, and that 
Wraparound concept changes kids' lives.
    It was important for us and to be able to continue to do 
our outreach to measure the impact by seeing how many of our 
children were actually graduating from high school, staying out 
of gangs. Gang prevention has really taken hold, particularly 
in northern Indiana. When I first came here, there was a sense 
of denial that we didn't have a gang problem. Coming from the 
New England area and coming from Boston and from southern New 
Hampshire and being able to recognize that we, indeed, had a 
gang problem and we needed to do something; we needed to put 
some prevention programs in place; we needed to make sure that 
we did gang prevention, as well as intervention. And the most 
effective and cost-effective way to prevent children from 
falling through the cracks of drug and gang prevention is to 
keep them off the streets.
    Time Magazine had an article several years ago--3 or 4 
years ago that said, ``Do you know where your children are? 
It's 4 o'clock--4 p.m.'' More and more of our families--single-
parent families are working one and two jobs, and children 
after school between the hours of 3 and 9 o'clock are the most 
at risk of falling through the cracks. And making sure that we 
have positive alternatives for children, but most importantly 
making sure that we have trained, loving, caring staff to 
inspire and enable all children, particularly those from 
disadvantaged circumstances, how to become responsible citizens 
and leaders, which is our mission statement for Boys and Girls 
Clubs.
    Boys and Girls Clubs across the country, there are 2,000 
clubs across the country serving 3 million children, and I'm 
blessed to be able to work with just one of them. And, in 
Elkhart County, our services have grown from one facility. We 
now have a second club in Nappanee, Indiana, we're opening a 
third one in Middlebury, Indiana and we just were blessed to be 
able to continue our outreach to children. The key, though, is 
one of my favorite sayings when we do prevention, ``They'll 
come in if it's new. They'll come back if it's you.'' And so 
many times we want to have new and innovative things that 
really don't make a difference. We need to find and sustain 
funding for the programs that really make a difference, the 
ones that stand out and change kids' lives, and that's through 
positive relationships between staff and children, and being 
there day-in and day-out where the children are, looking at all 
of the child, looking at all of the family. The family court 
concept that Judge Bonfiglio has put forward needs to take 
place. We have to look at all of the child, including their 
family, their environment and how much part of that impacts the 
life of a child throughout everything.
    And, if I had to say there was one thing that hurts or 
holds back a child, many of our children do not have hope. They 
just don't have hope. They don't see a tomorrow, and drugs and 
gangs and alcohol are just the symptomatic things that they use 
to mask all that. They just don't think they have any value and 
they think that they have no hope. That is what prevention 
services should be addressing; not entertaining children, not 
recreating the children, but reaching down and developing 
positive relationships with kids and then giving them the life 
skills that they need, making sure they understand that 
education is a priority; that you need to be educated. You need 
to have that to survive in life, and making sure that we 
continue to have and sustain the programs that work.
    So I thank you very much for the opportunity to be able to 
share this, and I'm done. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Deary follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.026
    
    [GRAPHIC] [TIFF OMITTED] T5124.027
    
    [GRAPHIC] [TIFF OMITTED] T5124.028
    
    [GRAPHIC] [TIFF OMITTED] T5124.029
    
    Mr. Souder. Thank you very much, too, for helping mentor 
other clubs that aren't even in your jurisdiction. I know that 
Rockford and Bluffton and the group over in Huntington have 
come up and observed your efforts in Goshen, and it's a 
tremendous example.
    Mr. Deary. Thank you.
    Mr. Souder. Ms. Stovall.
    Ms. Stovall. I appreciate the opportunity to speak with you 
this afternoon. It's a passion of mine to talk about young 
people I work with; however, I will tell you I'm much more 
comfortable with a group of adjudicated youths than I am in 
your presence. So please forgive me for that.
    Deer Run is an alternative education program that was 
developed through the collaboration of East Allen County 
Schools and the Allen County Superior Court, Family Relations 
Division, specifically Juvenile Probation. And we're currently 
in our 4th year of programming. The students from our 
corporation--five high schools, actually--have--under 
supervision of court and on formal probation, are actually 
eligible for attendance at the Deer Run Academy, and both 
organizations, the school and the court, need to agree on 
placement before they actually enroll the student.
    In the past, students that were expelled from the high 
school did not have options; they were out on the street, out 
in the community until the time of their expulsion was over, 
but then they had options to return to schools. This program 
actually fills a large gap, because what happens is these 
students are automatically placed at risk once they're not 
returning to school; and, two, for staying in the court system 
and attached to it long-term. So, by serving as an alternative 
to expulsion, we keep these students specifically attached to 
school, in school and then give them an opportunity to develop 
some skills that will hopefully become life skills, skills like 
communicating, thinking, problem-solving, persevering, working 
toward a common goal with other people; the skills for life. 
Skills that will be beneficial to them when they return to a 
classroom, if they return to a classroom, but, more 
importantly, skills for life. And that is truly our focus.
    The Deer Run program has four component pieces to it. We 
have small group instruction, and the instruction is based on 
core academics. English, math, science, social studies are 
standard instruction. We have a Timberline Challenge Ropes 
course that we utilize onsite. We also have the adventure/
outdoor education programming component. And then one of the 
strongest pieces is actually working with outside community 
partnerships outside of the classroom and giving students an 
opportunity to go and work and learn someplace outside of the 
school or the traditional idea of school and also bring back 
some skills that we can generalize and use again and help them 
to use again in a more productive manner.
    We truly want to provide them a nontraditional means of 
getting an educational experience, and what we consider to be 
nontraditional, actually, is--if you're looking at research, is 
best practices for how students learn and how kids learn. Small 
is good. Students learning with small groups, students getting 
individualized attention or small group instruction, students 
that are able to have meaningful relationships with appropriate 
adults, instruction that's relevant--observably relevant to 
their lives, those are best practices. That's what we--that's 
what we do. That's what we attempt to do with students.
    I actually asked several of my students before I left 
social studies class today what they would want you to know 
about Deer Run and what we do and what we are. And it's always 
interesting to hear their response, but this is what they said: 
``You help us go from Ds and Fs to As and Bs.'' And the 
questions was ``How come?''.
    ``Well, because you guys are here and you work with us 
right now. It's smaller here. There are fewer students in my 
class, and I don't feel lost. The teachers are right here to 
help you, and you get to work at your own pace. You get to ask 
questions and not feel stupid. You try to get us to think about 
the choices we make.''
    And these are words from those young people that we spend 
our days with that are considered juvenile delinquents or 
adjudicated youth. Their perceptions of Deer Run are our truest 
measure of effectiveness, and I truly believe that when a 
student transitions back from our program--typically, they stay 
with us from when they enter to the end of the school year. We 
followup with contacts, we work with them through their next 
year away from Deer Run, supporting them. Of the 95 students 
that have come through the Deer Run program, at this time, 81 
students have either completed their course of instruction and 
graduated or they've returned to some type of educational 
program and remain there. That's encouraging.
    I have a colleague that sent me a quote that I wanted to 
share with you today. It comes from a book called Inviting 
School Success, and it says, ``People in environments are never 
neutral. They either summon or shun the development of human 
potential.'' And our ultimate goal at Deer Run Academy is to 
provide people an environment that can summon the human 
potential in these students who have come from a variety of 
times and places and situations. We're not the be-all, end-all 
to every student; we're a part of a continuum, hopefully a much 
larger continuum of options for that person that has some very 
real needs, and we gratefully step forward and accept that 
challenge for our piece in this.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Ms. Stovall follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.030
    
    [GRAPHIC] [TIFF OMITTED] T5124.031
    
    [GRAPHIC] [TIFF OMITTED] T5124.032
    
    [GRAPHIC] [TIFF OMITTED] T5124.033
    
    [GRAPHIC] [TIFF OMITTED] T5124.034
    
    Mr. Souder. Almost said Matt. The Honorable Matthew 
Schomburg. Appreciate your testimony.
    Judge Schomburg. Like I say, it's an honor and a privilege 
to be here today to provide a voice to people that--I guess 
you'd have to be a township trustee to understand--people that 
typically don't have a voice that's represented, and that's the 
indigent community, different things that I get invited to. In 
other words, the people from this group that never have a 
representative there, other than someone like a trustee, and 
it's very frustrating for me, being a trustee, and you'd have 
to live my life to understand that a lot of the issues that are 
so important to this group of indigent people never seem to get 
much in the way of publicity because those are usually the 
issues communities don't like to face a lot of the time. So the 
opportunity to be here to talk about the Twenty-first Century 
Scholars program, a program to help get education for the 
people from this group, is just really and truly a great honor.
    The Wayne Township Trustee's office is the only government 
office in the State of Indiana that does host--and there's 16 
regional sites, and it's one of the 16 sites, and that's the 
only one with a government office. We try very hard to get 
support from everyone within the community and we're honored to 
have our mayor, Grant Richards, be very supportive, as well as 
Congressman Souder. They've both been essential projects to 
support this program to help get students signed up for this 
program. I have a brochure here that really sums up everything 
tremendously well about the Scholars program and I'd like to 
pretty well glean my testimony from this.
    Post-secondary education is expensive and a major financial 
burden for many Indiana families. Every student deserves the 
opportunity to earn an education--a higher education. Twenty-
first Century Scholars program makes college a reality for 
eligible Indiana students and their families. In 1990, Indiana 
General Assembly created the Twenty-first Century Scholars 
program to raise an education, the educational aspirations of 
below- and moderate-income families.
    Indiana, to create this program, used three sources of 
funding. They use GEAR UP funding, which I thank Congressman 
Souder for being so involved with, a State fund and also 
Americorps fund. During the past 11 years, the Scholars program 
has enrolled nearly 70,000 Indiana eighth graders. Since 1995, 
more than 20,000 scholars have returned their pledges of good 
citizenship, and Twenty-first Century Scholarships have been 
awarded to 16,050 scholars today. That's, approximately, 80 
percent of all people that enroll in this program get awarded 
scholarships.
    Today, thousands of scholars are enrolled in colleges and, 
for 1998/1999 program year, the first scholar year in the 
scholars to graduate from college, there were 450 graduates. In 
2000 and 2001, there were nearly 1,700 scholars from each 
college.
    The Twenty-first Century Scholars program is excited and 
encouraged by the accomplishments of the program and it's seen 
a steady increase in enrollment over the last 2 years. In fact, 
the Scholars program reached a high point in the 2000/2001 
program year by enrolling 11,035 students. Seventy percent of 
the State's eligible eighth graders were included in that 
group, and that was an increase of more than 1,100 students 
from the 1999/2000 year.
    The program works by enrolling income-eligible students in 
the Scholars program of who fulfill a pledge of good 
citizenship. And these students are guaranteed the cost of 
eight semesters of college tuition at any participating Indiana 
college or university. The scholars take an actual pledge and 
the pledge is that they will graduate from an Indiana high 
school with a college--or, a high school diploma, will achieve 
a cumulative grade point average of at least 2.0 on a four-
point scale, and they will take a pledge not to use illegal 
drugs, alcohol or commit any crime, they will apply for 
admission to an Indiana college or university or technical 
school as a high school senior and they will apply on time for 
State and Federal financial aid.
    The benefit to the students and families are that the 
Scholars program supports the parents and secondary schools in 
preparing students to seek a higher education, offering 16 
support sites statewide, and on our site is that in northeast 
Indiana; special Scholars publications, which include career 
and educational information specific to the scholar's year in 
school; a toll free hot line to answer questions related to the 
Scholars program for higher education training careers, 
colleges and financial aid; the Scholars--a Scholars Web site, 
www.scholars.indiana.edu, that offers information for guidance 
counselors, regional support programs for both parents and 
students.
    All Scholars publications and the Twenty-first Century 
Scholars applications are in English and in Spanish and are 
available on this Web site. There's a regional newsletter, 
there's monitoring support programs available at the 
participating Indiana colleges and universities. And the first 
year Scholars program will accept applications from eligible 
seventh and eighth graders, and that just started this year. In 
the past, you had to be an eighth grader to enroll and, this 
year, we took seventh and eighth grade students.
    To qualify for the 2001/2002 year, students must be an 
Indiana resident, an applicant and a scholarship recipient to 
be an Indiana--excuse me--an Indiana resident as an applicant 
and a scholarship recipient in terms of our residency as a 
parent/legal guardian; as a child, a US citizen or a legal 
resident, be involved in seventh or eighth grade at an Indiana 
school accredited through a performance-based accreditation and 
meet the following guidelines: You have to be income-eligible, 
and it's close to the free or reduced school lunch program, 
which is for a household size between 21,479 up to a family of 
six for 43,827. And once a student becomes a Scholar, an 
increase in family income will not affect the student's 
enrollment. They have to fulfill the Twenty-first Century 
Scholars pledge.
    And it's an honor to have this program. We've seen a 
dramatic increase involving students and we are working very 
hard at all the different agencies and groups in the community 
to provide a well-rounded atmosphere for the students that 
maybe don't get all
of the advantages of other people that have--that don't have 
the limitations of income--an income-disadvantaged family would 
have.
    Thank you.
    Mr. Souder. Thank you for your testimony.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.035
    
    [GRAPHIC] [TIFF OMITTED] T5124.036
    
    [GRAPHIC] [TIFF OMITTED] T5124.037
    
    [GRAPHIC] [TIFF OMITTED] T5124.038
    
    Mr. Souder. The next witness is Mr. Mark Terrell of 
Lifeline Youth and Family Services.
    Mr. Terrell. Thank you very much for inviting me to speak 
today. Lifeline has been fulfilling its mission of changing 
hearts and bringing hope to a generation at risk since 1968. I 
was actually six at that point, so I wasn't much involved with 
it at that time, but, nonetheless, with the continuum care, it 
really consists of three things: Prevention, intervention and 
active care, and we really believe that's a special and unique 
thing that we have. Not only do we work in prevention, which 
our goal is to keep people out of the justice system, but, 
unfortunately, we also work with the kids that actually are in 
the justice system that are referred to us for probation, 
welfare, the Department of Corrections, and then aftercare. 
We're also following kids when they go home.
    The thing that I wanted to highlight today is the fact that 
we are a faith-based organization. We believe that's extremely 
important in what we do, but we also believe it's important 
that we aren't--we do not believe it's important that we impose 
our belief system on anyone; however, the people that work for 
us and the things that we do are based on biblical principles. 
We think that's extremely important.
    One of the--a program that I'd like to highlight today, 
because we have a lot of different programs, but probably the 
one that is probably the most near and dear to my heart really 
centers on things that have happened in the last 4 or 5 years, 
the carnage that we've seen in our public schools. Not only 
teachers and students have been killed, but the things in 
Paducah, Kentucky, the things that have happened in Columbine. 
Those have touched all of us. They've not touched just the 
inner city. In fact, they've touched urban America, suburban 
America and it's an incredible thing. What's happened, though, 
is that most of those cases that I've read is that they--the 
solutions have been How many metal detectors do we put in? What 
kinds of additional staff or security do we add? The other 
thing is what dress code do we put on? Are you allowed to wear 
a hat? Are you allowed to wear a backpack?
    Those things are important and I don't want to undermine 
those things, but we really believe the critical issue comes 
down to what is going on in the minds of the youth today. The 
definition of insanity says to do the same thing again and 
again and again and expect a different result. We talk about 
something even simpler than that; that is nothing changes, 
nothing changes. And we really believe that, and the a 
combination of working with the things that we've done in 
intervention in our group homes have really spurned a lot of 
the things that we're doing in the school system. We started a 
program called the Center for Responsible Thinking in our group 
homes, working with those that are from the Department of 
Corrections and probation. It's been very, very successful and 
it's out of materials that were developed by a gentleman named 
Samuel Yochelson who really thought about and did research with 
adult offenders. And his philosophy was that typical adult 
offenders or adult criminals have one, two or more thinking 
errors. And his belief was if we can help them recognize their 
thinking errors, we have an opportunity to change their 
behavior. We've adapted that material over the last 10 years 
and it's been exciting, but we--what we really--the purpose was 
to do things in our group home and expand it from there.
    Right now, we have--in the last 5 years, have been asked to 
work in middle schools and high schools working with the most 
challenging students that they have. It's very typical for us 
to go into a school and they say, here are our 20 worst kids. 
Go work with them. I'm not sure I'd want to be the facilitator 
in that class, but, nonetheless, it's been extremely exciting 
to see the results and the outcomes. What happens after that is 
that the schools came to us and said, can you work with our 
parents? What we're seeing is that kids will learn this, 
they'll go home, but the apple doesn't fall far from the tree. 
So we've developed a program that works with the parents of 
these students. The next thing that came out of that is, can 
you work with our young kids, and when we say, Young kids? 
Yeah. With our 5-year-olds and our 6-year-olds that are 5 and 
6-year-olds in our elementary schools. So we developed a 
program to work with them. And last year, we worked with a 
young--a child who was 5 years old who was in the school system 
already and had 60 referrals by the middle of the year. That's 
one of the things that we're doing.
    The other thing that we do is we're also working with--we 
have an office in Gary, where we're actually taking this 
material and working with the providers to help welfare 
recipients not only to get a job, but to keep jobs and be 
responsible. We think that the program that we have, Center for 
Responsible Thinking, is a phenomenal thing that combines the 
best of education, but also changes the minds and the behavior 
of students. Samuel had what I call an outstanding comment, and 
he said, that ``Unless we change the thinking of criminals, we 
simply produce more educated criminals.'' And, to me, that's an 
extremely part--important part of education and we're excited 
about the collaboration we have with the public school systems 
all over the State. We're in 10 counties now and have been 
asked to go beyond that.
    The question was how should the Federal Government 
encourage and promote effective grassroots programs, and my 
statement, which is in the material that was provided--and I'll 
just read this--is, ``Being a faith-based organization 
shouldn't necessarily determine my inclusion or being included 
in Federal programs, or my exclusion. My ability to provide 
services of excellence with quantifiable outcomes should be my 
basis for inclusion or, in some cases, my exclusion from being 
a part of the solution.''
    My philosophy is that we are producing results, which I 
know that we are, and we want to be a part of the solution. If 
we're not, take us out of the process. We--one of our core 
values of Lifeline is to strive for excellence in everything 
and mediocrity in nothing, and that is what we try to bring to 
the table every day.
    And we're excited that we could come here today and 
testify. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Terrell follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.039
    
    [GRAPHIC] [TIFF OMITTED] T5124.040
    
    [GRAPHIC] [TIFF OMITTED] T5124.041
    
    [GRAPHIC] [TIFF OMITTED] T5124.042
    
    [GRAPHIC] [TIFF OMITTED] T5124.043
    
    [GRAPHIC] [TIFF OMITTED] T5124.044
    
    Mr. Souder. And our last witness for the day. Everybody 
voted and, so, nobody wanted to follow Congressman Hines. He is 
our clean-up batter for today, has been a leader in Stop the 
Madness for much of the time and is developing the southeast 
neighborhood. It's a very creative faith-based initiative in 
government projects and trying to rehab arguably the toughest 
area. Two of our three lowest income census tracks in Indiana 
are in the central and southeast areas.
    And appreciate your leadership and look forward to your 
testimony.
    Mr. Hines. Thank you for inviting me and, before Honorable 
Elijah Cummings left, I wanted to congratulate him and Maryland 
for making it to his sweet 16, as well as Honorable Danny Davis 
of Illinois making the sweet 16 and obviously Indiana beating 
Duke last night made us very proud to be here this afternoon. 
But, not having said that, on behalf of the Board of Directors 
and the many youth/adults served by Stop the Madness, Inc. Here 
in Fort Wayne, it's my distinct pleasure as a city father to 
welcome you to our fair city. We are extremely pleased to 
have--that you have taken the time to come and solicit input 
from the grassroots organizations, such as Stop the Madness, 
Inc. And the many others.
    Stop the Madness was established in 1992 as a faith-based 
organization By Pastor Ternae T. Jordan, the senior pastor of 
the Greater Progressive Baptist Church, after his son, TJ, was 
shot in the head by a stray bullet while innocently sitting in 
the YMCA after taking piano lessons. TJ lived and graduated 
from Ball State University last year with a degree in music and 
that bullet still lodged in his head.
    Pastor Jordan became totally committed to stopping the 
needless madness of young people being shot and some even 
murdered due to senseless acts of violence. The mission 
statement for Stop the Madness is: ``To reduce the madness of 
violent behavior for at-risk youth through the development of 
programs designed to create discipline, self-awareness and 
personal empowerment.''
    We have four programs currently that are positively 
impacting the lives of our youth and targeted adult 
populations.
    First of all, there's the PACE program, Parents and 
Children Excelling. It's geared toward at-risk elementary and 
secondary school-aged kids. We started off with secondary first 
and we found out, as you did, that, actually, the problem is 
starting at a much earlier age, and we've expanded it to the 
high schools now. But the mentoring program that we use is Dr. 
Harold Davis's book, ``Talks My Father Never Had With Me'', 
which is a guide for selected mentors working with school-aged, 
at-risk male youth. Then his wife wrote a book called ``Talks 
My Mother Never Had With Me'', Dr. Ollie Watts Davis, which is 
a guide for mentors working with school-aged, at-risk female 
youth.
    This is the 6th year of the male initiative and the 2nd 
year for the female initiative. And, with the cooperation of 
the local public school systems, we were able to establish in-
school mentoring programming that seeks personal empowerment as 
an option to expulsion and suspension. Our mentors are our paid 
staff and faith-based volunteers, who utilize the lunch hour or 
after-school time to have open discussions, allowing for youth 
perspectives. Parents are involved with a number of items, 
including field trips, academic monitoring and support and 
child--parent/child relationship seminars.
    The success of the program is measured by the amount of 
parental involvement with the child's curriculum--curricular 
and extra-curricular activities, the decrease in school 
disciplinary action and the student's academic progress.
    Our recommendation to you is to contact Mr. Harold Davis--I 
called him and told him I'd make the plug for him--at 217-356-
6239, because he has a structured mentoring program, which 
utilizes both the books of his wife and himself, and it works 
if properly followed. That program is funded by local 
foundation and corporate grants.
    Then we have a Fathers and Families Initiative, which is 
primarily an outcome based on having fathers being more 
involved with the child. We want to improve their parenting 
skills, the co-parenting skills, and we have set up a number of 
workshops and seminars that are convenient for the father and 
the child for training on relevant topics. The fathers are 
brought into the program with the assistance of the court 
system through your--youth sports activities and church 
outreach ministries. This program helps with crime prevention 
by having fathers involved in the lives of their child at an 
early age before the gang becomes the father figure in their 
lives. We measure our success by increased number of quality 
contacts by the father with his child on a weekly basis. Also, 
we tally the planned functions, workshops and seminars attended 
by both parents. This program is funded by the State of Indiana 
grant.
    And then, finally, the last two programs is the Value-Based 
Initative, which is funded by the COPS program, and we have two 
components to the Value-Based Initiative. One is the Value-
Based Intiative Academy, which is a 12-week classroom setting 
held at the police station that has targeted adult, ministers 
and community leaders, and the goal is to improve police and 
community relations. We have, to date, had three academies with 
120 enrollees. And for 12 Monday nights from 6:30 to 9 p.m., 
the community leaders are allowed to meet with the police 
department and discuss and share perspectives relating to 
either police work or community concerns. And there's a pre-
measurement--or, the measurement is that there's a pre- and a 
post-survey related to the perceptions of policing policies.
    And, finally, we had mentioned earlier by Judge Surbeck the 
Value-Based Mentoring program where graduates of the academy 
have stepped to the plate and said, We want to do more. So we 
have ministers and lay people who are now volunteering on the--
with the courts with the re-entry courts to come and sit and 
talk and work with the re---returning offenders. And we 
currently have 40 men and women who are volunteering to work 
with those returning offenders. And that program, as I said 
earlier, is funded by the COPS program and we're seeing success 
at least in increasing
the relationship between the re-entry individual and the 
community.
    And, with that, I thank you for inviting me to be here 
today.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Hines follows:]

    [GRAPHIC] [TIFF OMITTED] T5124.045
    
    [GRAPHIC] [TIFF OMITTED] T5124.046
    
    [GRAPHIC] [TIFF OMITTED] T5124.047
    
    [GRAPHIC] [TIFF OMITTED] T5124.048
    
    Mr. Davis. Sure. Thank you very much, Mr. Chairman.
    Let me just thank each one of you for your testimony. As a 
matter of fact, much of what you have experienced mirrors my 
own experiences, especially working with young people. My 
parents always told me that an ounce of prevention was worth 
much more than a pound of cure, and it seems to me that's 
exactly the modalities that all of you are using, which also, I 
suspect, contributes to the fact that the problems you 
experience are not nearly as mammoth as those that people who 
live in areas where I live experience. I'm saying the numbers 
are very different and you've obviously had more success.
    I have a cousin who is a member of your group, Doja Alan, 
who's the dean, I think. He's been around that long.
    Mr. Deary. One of my mentors.
    Mr. Davis. Well, I discovered that Doja and I were cousins 
about 5 years ago and it's been a wonderful experience. I met 
him at a family reunion and we both wanted to know why we were 
there, and it turned out that members of our families were 
connected, and we've just had a great relationship since then.
    The question that I've asked in each instance, what can the 
Federal Government do? I mean, you're obviously already doing 
things and you're doing them successfully to a real degree. 
What is it that we can do as the Federal Government that would 
make what you do more effective or more successful?
    Mr. Hines. I'll start, because you said something about 
legislation that you're proposing for housing, and one of the 
things that excited me in hearing that you're taking a lead--
And I've watched you numerous times on C-Span. I appreciate the 
leadership that you have in the house--is that, locally, as a 
city councilman, we're in a different act. We're looking at 
legislation for tax credits as relates to the businesses who 
will want to higher individuals who have previous records.
    And then, second, we're looking at the housing issue, and 
that is how can we provide tax credits for in-field housing. As 
Congressman Souder has said, and my disagree, we have a lot of 
low income and we have a lot of vacant lots and we want to take 
and put in-field housing as an inducement in order to get 
living standards up, as well as places for some of these 
returning offenders. And I appreciate whatever you're doing to 
continue and to--if we need letters from us, we would love to 
get a letter-writing support going, because we need whatever 
legislation can come to the communities that will support 
additional housing.
    Mr. Davis. A man after my own heart. Because--and 
oftentimes, people think that when you propose things, you're 
just kind of looking, but they're actually born out of 
experiences. And one of the experiences we're always looking at 
is the question of resources and whether or not the resources 
can be made available. So, yeah, we think this is sort of a 
creative way of doing it so as to not scare anybody off and 
don't get the thinking that, you know, we're going to break the 
bank.
    But, also, we know that, unless we can help people to 
become productive, then they're costing us. For example, we 
spend far more money in Illinois to incarcerate people than we 
do to educate them. It costs us around $30,000 to keep a person 
in prison for a year. We could send them to the University of 
Illinois for 10,000 or less, and that would make a great deal 
of difference. They may never win the sweet 16, but they do 
some other things.
    Mr. Deary. When I heard your question, Congressman Davis, 
the first thing I thought of was what I would say accomplish--
was to accomplish when I was listening to a gentleman who was 
running a program at the University of Dallas--Fort Worth/
Dallas, Texas, and they wanted to do a gang prevention program. 
And what they did is decided that they would partner with the 
Boys and Girls Club, and the Boys and Girls Club traditionally 
went from 3 to 9 p.m. at night. These are kids who 
traditionally are not bad. Some of them are and some aren't, 
but most aren't, particularly addressing prevention, although 
they were very young, just on the fences of maybe falling into 
a gap.
    And there was a tremendous amount of Federal money put in 
place to offer intervention programs at that same facility, and 
they decided to bring the gang--active gang members in at 9:30, 
because they ran programs from 9:30 to midnight. There was a 
tremendous amount of money put in place from 9:30 to midnight. 
Well, sure enough, the kids quit the Boys and Girls Club and 
joined the gangs, because there was more stuff to do at 9:30 
then there was to do between 3 and 9, because they didn't have 
arts and crafts supplies, they didn't have enough staff on 
place, they didn't have enough to do recreationally and they 
couldn't afford the staffing. And I think, if there was 
anything, I think we all learned a valuable lesson from that 
said there is much to be said with your grandmother's initial 
pound of prevention--or cure. An ounce of prevention is much 
worth it. And they had to make some changes there and put that 
money back into being the gatekeepers of fences and keeping 
kids away from the gangs and still providing resources to get 
kids out of the gangs and change their lives around and get the 
prevention that the schools and they needed.
    Mr. Davis. Let me ask one last question, if I could, Mr. 
Chairman.
    How do we convince people that this type of intervention--
I'm saying it's always been amazing to me during the time that 
I've been involved in the public office and public life the 
difficulty of convincing the general public that, if we make 
certain kinds of investments up front, that we get all of this 
return on the other end. And that is far more cost-effective to 
help shape and create during the early stages of one's life 
than to be able to intervene successfully at the later stages. 
And, yet, we seem to have serious difficulty.
    I mean, I see so many instances, for example, where the 
faith-based organization just got a little money. They wouldn't 
need as much, because there's some other things that work there 
in terms of people being driven by a certain sense of mission 
and will, in fact, do things without as much resource, but they 
need enough to coordinate and facilitate and keep things 
moving.
    How can we convince the public more effectively?
    Mr. Terrell. I come from the business--a business 
background before I joined the not-for-profit ranks, so I take 
a little different perspective. I come with a business 
perspective and I think it's very, very important that we think 
like business people and communicate to them in business terms. 
And, so often--I was with a couple of businessmen the other 
day. They said, thank you very much for talking in our terms. 
And, so often, we--I think, in social services, we talk in a 
whole different language. I think, from the political 
standpoint, we talk with a different language. I think it's 
very important that, as I have been in the social services, 
when I've seen again the cost that it is for me to have a kid 
in one of my group homes, it's very, very expensive. It's an 
expensive program that's $240 a day. Extremely expensive. And I 
see what it would cost for us to do it the other way, and we 
need to somehow literally put it in a fashion for business 
people to see the value. I mean, because I'll be honest. Before 
I came, I didn't see the value. I thought, It's another 
program, another handout, and you know what? My tax dollars are 
already paying for it, and I'm not going to help.
    My challenges that I have been trying to do for my agency 
is communicating to them what the value is to them personally 
and for them as a community. So that's a suggestion.
    Mr. Davis. Oh. Thank you.
    Mr. Hines. I, too, came from the business background with 
banking and 20 years with Xerox Corp. marketing and sales. And, 
so, I appreciate that view, but also from the faith-based 
initiative, which is what we're doing, with the Value-Based 
Initiative, we had to get ministers who were saying, We didn't 
want those people back in our community for the re-entry. We 
don't want those people. We had to get them in the Value-Based 
Academy and walk through what the reality is; that these people 
came from your community and they're going to return to your 
community. You have a responsibility.
    So I think there's multi-level initiatives that we need to 
look at from a business perspective from the traditional social 
services making that paradigm shift to where now it's outcome-
based and being accountable and having measurements. I mean, 
also to the faith-based, where we have, quite frankly, 
ministers step up to the plate and say that their congregation 
has to be more responsible. And what we're finding with the 
faith-based people with the value is that those volunteers that 
Judge Surbeck had a little difficulty--he was sworn to 
testimony, but he had difficulty explaining, because the courts 
are having problems relinquishing control and the ministers are 
having problems relinquishing control. So they're trying to 
work through that, but everyone agrees that we need to come 
together for commonality, so there's more discussion and 
communication the more that we do of that in our respective 
entities.
    One last comment. I promote the Twenty-first Century 
program, so I think the other thing that we need to also be 
concerned with, those of us that are in the field, is we can't 
have that tunnel vision and only look out for my program. If, 
in fact, the Boys and Girls Club is an option that's best for 
the youth, we've got to refer to those agencies and we've got 
to communicate with one another what's being provided--what 
services, so that we can again broaden the base of support that 
our young people need.
    Mr. Davis. If I could just--Ms. Stovall, I'm sure that Deer 
Run is fairly expensive, but it's a mandated program, right, by 
the courts?
    Ms. Stovall. Yes.
    Mr. Davis. And that the individuals are sent to--in 
transition, back to another place once they're ready.
    Ms. Stovall. Yes. That's correct.
    Mr. Davis. Part of the overall community.
    Ms. Stovall. Well, it--it's kind of two-fold. In one way, 
the option is that we don't have kids on the street with time 
on their hands doing nothing, and it's very practical to say, 
You know, we've got these students in school. These kids are in 
school. They're attached to a program. They're being monitored. 
They're learning skills to hopefully help change behavior, and 
that's a strong piece.
    The other side is the cost of incarcerating a young person, 
as you were saying. You know, they could be in detention for a 
year for, you know, $35,000 a year or they can be in school, 
where your tax dollars are already providing the teachers' 
salaries and probation officers', you know, salaries, and 
that's a better return on the investment and it's longer-term.
    Mr. Davis. Thank you very much, Mr. Chairman. This has been 
most rewarding and enlightening for me. I thank you so much.
    Mr. Souder. Thanks. And I want to reiterate to each of the 
witnesses. I want to make sure that our hearing book has not 
only what you talked about today about the diversity of 
services from Lifeline and if you have more from Deer Run and 
some of the other things that you do in each of your 
organizations. Part of the goal is to have increased awareness 
of the holistic approach to these different things and that 
what I'd like to just say here is we've got to figure out how 
we can promote these in our community. And I want to get this 
on the record so we can use this in our congressional work in 
Washington, as well, and, hopefully, we can see this in other 
areas.
    To give you a little bit of an idea why we did the mix here 
that we did today, that's what's been apparent to me for a long 
time is that, yes, you need to protect citizens by locking up 
people who are endangering their lives, but that's a short-term 
solution. And the question is how do we do the interaction 
thing and provide what Mr. Deary referred to as hope? Well, 
part of that's the scholarship. We say, Look. You try to keep 
it straight. You have a hope here, because many kids simply do 
not believe, by the time they get to junior high, particularly 
lower income and minorities, that they're going to have a 
chance. And what we're saying is, we'll give you a chance, but 
here's your responsibility.
    And we have to--but we have to follow it up, and that's why 
I chose, along with a couple of other Republicans, to back the 
bill on GEAR UP to publicize this. And it was not a pleasant 
battle in the Education Committee, but, with different people 
like Mr. Davis, Mr. Cummings, Mr. Ford, Mr. Meades and Mr. 
LaTourette, we've been able to work together on a number of 
these type of initiatives, because they aren't partisan anymore 
than they are the city's. That--that's what we know in Fort 
Wayne, is is that--and Reverend George and others have been 
leading the effort--is it's not just a matter of, OK. We put 
the police station in there. Now, you need to gain control of 
the crime. You need to do neighborhood policing. You need to 
get control of the crack houses, but rather, hey, what new 
homes need to be built? Where is the housing going to come 
from? How are we going to do the transition?
    Working on this campaign, we know if the tax rates go too 
high, nobody can afford to live there. We need to have a 
holistic concept as much as possible in approaching this. 
That--that's one of the--and there are inner-reactions in the 
Federal dollars in many of these different programs. Lifeline 
was part of one of the earliest of the community block grants. 
Our subcommittee not only does oversight, but we also provide 
the drug intervention in the community and the drug initiative, 
where Judge Kramer was alluded to earlier today. He's been 
active up in Noble County, but Allen County was the second 
group and Lifeline was a part of those communities' anti-drug 
efforts and there's amazing little footnotes in some of what's 
happening in our judicial system here in Allen County that 
Judge Simms, Judge Pratt, Judge Schiedberger and I were all 
introduced to within a 2-year period. And the three of us are 
Republicans. Judge Pratt, Judge Simms and I were all very 
active conservative Republicans. Judge Simms has been the 
leader in the creation of Deer Run Academy. Judge Pratt is the 
character-building of it that was referred to here today with 
some of the Elkhart programs. Judge Schiedberger was my vice 
Presidential candidate as a Democrat when I was running as a 
Republican, and we ran a team together out of IPFW.
    This isn't a partisan question. The question is what we're 
dealing with here, kids and families. We have to try to work 
together to try to address it and we need to look at it 
holistically, and part of that is in the education system for 
those higher-risk kids, like those out of Deer Run, where 
volunteers have gave the money and the land to create the area, 
where you meet the kids and you have committed teachers who 
give up some of their regular career tracks because they're 
passionate about how to help the high-risk kids, whether it's 
with the future of college or it's with the Wraparound after 
school, and I think it's exciting to see that.
    The question is how can we educate the general community? 
And, in return, you all have to keep track of how to keep it 
effective. It's very easy to kind of become soft in some of the 
social areas by saying, Oh. Anytime you talk to somebody, 
that's helpful. And that's one of the biggest battles we face, 
I think. With Congressman Davis's question, what we are trying 
to relate to you today is two-fold; one is the discouragement 
among people that say, Well, drug and alcohol problems are 
still great. The poor are always going to be with us. We still 
have child abuse problems. We still have rape. We still have 
murder. The bottom line of that, the question is how much can 
you manage and how many individual kids can we reach to give 
them a fighting chance? Nobody can guarantee the results, but 
you all are working to give each family and kid a fighting 
chance to have a different life. That's No. 1.
    And, second, we have false expectations in our society that 
if you said, let's do this program, life is going to change. We 
have to be responsible, whether it's drug court or whether it's 
a different court program or whether it's SAMHSA. It's time to 
say, look, do you know that 6 percent of the people on drugs 
and alcohol have some other kind of mental health problem? They 
are not going to be done just like that in a 3-week program. 
And then there's the kids in gangs. There's kids that have 
younger brothers and sisters and none of them want to see them 
join. It's something we don't want to see them get involved in 
and, yet, they do, unless we can keep them from it.
    So I want to thank you--each one of you, because our goal 
today is to illustrate these interactions and I appreciate all 
the time you took today and, most importantly, the work you're 
doing. And you can tell the volunteers in your program, the 
people who work for you that often go unpaid, that don't have 
health care that sacrifice they're time--And even if they are 
paid, they don't get the same benefits--thank them, too, on our 
behalf.
    Judge Schomburg. Before you close, I'd like to add one 
thing. One of the pastors was talking about bringing people to 
the Lord and he said, you know, for all of you that are here 
today that feel like we need to be telling you get in there. We 
need to have more caring people and less people that need to be 
cared for, I want to share with you a moment that changed my 
life.
    There was a young man that was in my office. And I used to 
do hiring of all the inner-city kids in Fort Wayne. And the 
group of people that I typically got were the people that no 
one wanted, because the jobs I hired for paid less than any 
other employer paid and they were just really difficult, dirty, 
nasty jobs.
    And, one day, I had a young man come in my office who had a 
criminal record, and I don't think I've ever come across anyone 
that needed a job worse than this gentleman. And he was 
probably the least prepared person I've ever seen come in for 
an interview, and he broke my heart. I sat there and I looked 
at this man and thought, Where is this man going to be--he was 
a very young man--if someone doesn't take the time? And I told 
him. I said, young man, I want you to just relax because it's 
my intention to give you a job. I didn't care if I got fired by 
my boss that day, because I was going to make sure this man got 
the job because of how bad he needed it. And I decided to take 
the time to provide what this man needed to make a transition 
in his life.
    He had three kids. He was ready to be locked up for lack of 
support because he had no income. And, so, I helped him out. I 
talked to him about the job that I had. He didn't have any kind 
of a resume or anything together, and I explained to him, you 
know, that I know this is going to be the last job you ever 
wanted, but, if you don't mind, the one thing I'd like to do 
for you is, if you don't mind, I'd like to share with you the 
things you're going to need to get a better job, because I know 
that this job isn't going to do for you what you need.
    So I helped him put a resume together, I explained how he 
could go about getting a better job, and we took the time. And 
that man got a really good full-time job and ended up at the 
firm that employed him because one of the people he met with 
was a caregiver.
    About a year ago, he looked me up and told me, You know, 
the moment that you took for me made the biggest difference in 
my life. He said, I'm not one of these people that has been 
with the system. I'm paying my taxes, I'm supporting my kids 
and doing all those things. And, you know, I just--it was that 
moment when he was in my office, I wanted to find out who his 
parents were and grab them and wring their necks, because I've 
never seen a child in my life less prepared for life than this 
man.
    And I think the most important thing about all these 
programs and the things that were said here today that 
impressed me the most were the things that talk about the time, 
and that's one of the things about the Twenty-first Century 
Scholars program that has always really touched my heart, is 
that people involved in our program take the time to hear 
whatever it is that kids are struggling with. And that's the 
thing that's needed to make the difference in these kids' 
lives, because, you know, the simplest thing is if one takes 
the time to take this pledge, it's whatever it is and it's the 
barrier for that particular child. That's the barrier that 
you're addressing. And these programs that are going to be the 
most successful are the ones that give time more than anything 
else.
    So I just wanted to add that. I really appreciate being 
here. I'm a Dodger fan today because of the White Sox.
    Mr. Souder. Thank you. Thank you, Matt.
    Thank you very much for all your testimony. Also wanted to 
thank Amy Adair, of course, who put much of this together, 
who's a Fort Wayne native and the deputy staff director of the 
committee, our staff director, Chris Donesa, who's also from 
Fort Wayne, Conn and Tony and all the other staff who worked 
with this hearing, as well.
    Thank you again, Congressman Davis, for his generosity in 
coming down here to Fort Wayne and each of you, the time you 
spent and we look forward to some additional materials and 
followup questions.
    With that, the hearing stands adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5124.049

[GRAPHIC] [TIFF OMITTED] T5124.050

[GRAPHIC] [TIFF OMITTED] T5124.051

[GRAPHIC] [TIFF OMITTED] T5124.052

[GRAPHIC] [TIFF OMITTED] T5124.053

[GRAPHIC] [TIFF OMITTED] T5124.054

[GRAPHIC] [TIFF OMITTED] T5124.055

[GRAPHIC] [TIFF OMITTED] T5124.056

[GRAPHIC] [TIFF OMITTED] T5124.057

[GRAPHIC] [TIFF OMITTED] T5124.058

[GRAPHIC] [TIFF OMITTED] T5124.059

[GRAPHIC] [TIFF OMITTED] T5124.060

[GRAPHIC] [TIFF OMITTED] T5124.061

[GRAPHIC] [TIFF OMITTED] T5124.062

[GRAPHIC] [TIFF OMITTED] T5124.063

[GRAPHIC] [TIFF OMITTED] T5124.064

[GRAPHIC] [TIFF OMITTED] T5124.065

[GRAPHIC] [TIFF OMITTED] T5124.066

[GRAPHIC] [TIFF OMITTED] T5124.067

[GRAPHIC] [TIFF OMITTED] T5124.068

[GRAPHIC] [TIFF OMITTED] T5124.069

[GRAPHIC] [TIFF OMITTED] T5124.070

[GRAPHIC] [TIFF OMITTED] T5124.071

[GRAPHIC] [TIFF OMITTED] T5124.072

[GRAPHIC] [TIFF OMITTED] T5124.073

[GRAPHIC] [TIFF OMITTED] T5124.074

[GRAPHIC] [TIFF OMITTED] T5124.075

[GRAPHIC] [TIFF OMITTED] T5124.076

[GRAPHIC] [TIFF OMITTED] T5124.077

[GRAPHIC] [TIFF OMITTED] T5124.078

[GRAPHIC] [TIFF OMITTED] T5124.079

[GRAPHIC] [TIFF OMITTED] T5124.080

[GRAPHIC] [TIFF OMITTED] T5124.081

[GRAPHIC] [TIFF OMITTED] T5124.082

[GRAPHIC] [TIFF OMITTED] T5124.083

[GRAPHIC] [TIFF OMITTED] T5124.084

[GRAPHIC] [TIFF OMITTED] T5124.085

[GRAPHIC] [TIFF OMITTED] T5124.086

[GRAPHIC] [TIFF OMITTED] T5124.087

[GRAPHIC] [TIFF OMITTED] T5124.088


</pre></body></html>
